                        Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices                          33869

alternative approach may be used if        and Research, Food and Drug                comments may be seen in the office
such approach satisfies the requirement    Administration, 5600 Fishers Lane,         above between 9 a.m. and 4 p.m.,
of the applicable statute, regulations, or Rockville, MD 20857. Send one-self         Monday through Friday.
both.                                      addressed adhesive label to assist the       Dated: June 16, 1999.
   Interested persons may submit written   office in processing your requests.        Margaret M. Dotzel,
comments on the draft guidance to the      Submit written comments on the draft       Acting Associate Commissioner for Policy
Dockets Management Branch (address         guidance to the Dockets Management         Coordination.
above). Two copies of any comments are     Branch (HFA–305), Food and Drug            [FR Doc. 99–16140 Filed 6–23–99; 8:45 am]
to be submitted, except that individuals   Administration, 5630 Fishers Lane, rm.
                                                                                      BILLING CODE 4160–01–F
may submit one copy. Comments are to       1061, Rockville, MD 20852.
be identified with the docket number       FOR FURTHER INFORMATION CONTACT:
found in brackets in the heading of this   Wallace P. Adams, Center for Drug          DEPARTMENT OF HEALTH AND
document. The draft guidance and           Evaluation and Research (HFD–350),         HUMAN SERVICES
received comments may be seen in the       Food and Drug Administration, 5600
office above between 9 a.m. and 4 p.m.,    Fishers Lane, Rockville, MD 20857,         Office of Inspector General
Monday through Friday.                     301–594–5651.
   Dated: June 16, 1999.                   SUPPLEMENTARY INFORMATION: FDA is
                                                                                      Draft OIG Compliance Program
                                                                                      Guidance for Certain Medicare+Choice
Margaret M. Dotzel,                        announcing the availability of a draft
                                                                                      Organizations
Acting Associate Commissioner for Policy   guidance for industry entitled
Coordination.                              ‘‘Bioavailability and Bioequivalence       AGENCY: Office of Inspector General
[FR Doc. 99–16139 Filed 6–23–99; 8:45 am]  Studies for Nasal Aerosols and Nasal       (OIG), HHS.
BILLING CODE 4160–01–F
                                           Sprays for Local Action.’’ This draft      ACTION: Notice and comment period.
                                           guidance provides recommendations to
                                           applicants intending to provide studies    SUMMARY:   This Federal Register notice
DEPARTMENT OF HEALTH AND                   to document BA or BE in support of         seeks the comments of interested parties
HUMAN SERVICES                             NDA’s or ANDA’s for locally acting         on draft compliance program guidance
                                           nasal aerosols and nasal sprays. This      developed by the Office of Inspector
Food and Drug Administration               guidance covers prescription               General for Medicare+Choice
                                           corticosteroids, antihistamines,           Organizations that offer Coordinated
[Docket No. 99D–1738]                                                                 Care Plans (M+CO/CCPs). Through this
                                           anticholinergic drug products, and the
                                           over-the-counter (OTC) mast-cell           notice, the OIG is setting forth its
Draft Guidance for Industry on
                                           stabilizer cromolyn sodium. This           general views on the value and
Bioavailability and Bioequivalence
                                           guidance does not cover studies of nasal   fundamental principles of M+CO/CCP
Studies for Nasal Aerosols and Nasal
                                           sprays included in applicable OTC          compliance programs, and the specific
Sprays for Local Action; Availability
                                           monographs or studies of: (1) Metered-     elements that each M+CO/CCP should
AGENCY: Food and Drug Administration,
 dose products intended to deliver drug         consider when developing and
HHS.
                                      systemically via the nasal route, or (2)   implementing an effective compliance
ACTION: Notice.
                           drugs in nasal nonmetered dose             program.
                                           atomizer (squeeze) bottles that require    DATES: To assure consideration,
SUMMARY: The Food and Drug
                                                           comments must be delivered to the
                                           premarket approval.
Administration (FDA) is announcing the
       This draft level 1 guidance is being    address provided below by no later than
availability of a draft guidance for
      issued consistent with FDA’s good          5 p.m. on July 26, 1999.
industry entitled ‘‘Bioavailability and
   guidance practices (62 FR 8961,            ADDRESSES: Please mail or deliver
Bioequivalence Studies for Nasal
          February 27, 1997). The draft guidance     written comments to the following
Aerosols and Nasal Sprays for Local
       represents the agency’s current thinking   address: Office of Inspector General,
Action.’’ This draft guidance document
 on BA and BE product quality                  Department of Health and Human
provides recommendations to
               information related to nasal inhalation    Services, Attention: OIG–4N–CPG,
applicants intending to provide studies
 aerosols and nasal metered-dose spray        Room 5246, Cohen Building, 330
to document bioavailability (BA) or
       pumps. It does not create or confer any    Independence Avenue, S.W.,
bioequivalence (BE) in support of new
     rights for or on any person and does not   Washington, D.C. 20201.
drug applications (NDA’s), or
             operate to bind FDA or the public.            We do not accept comments by
abbreviated new drug applications
         Alternative approaches to                  facsimile (FAX) transmission. In
(ANDA’s) for locally acting nasal
         documentation of BA and BE may be          commenting, please refer to file code
aerosols (metered-dose inhalers) and
      used if such approaches satisfy the        OIG–4N–CPG. Comments received
nasal sprays (metered-dose spray
          requirements of the applicable statute,    timely will be available for public
pumps).
                                   regulations, or both.                      inspection as they are received,
DATES: Written comments on the draft
         Interested persons may, on or before    generally beginning approximately 2
guidance document may be submitted
        September 22, 1999, submit to the          weeks after publication of a document,
by September 22, 1999. General
            Dockets Management Branch (address         in Room 5541 of the Office of Inspector
comments on agency guidance
               above) written comments with evidence      General at 330 Independence Avenue,
documents are welcome at any time.
        to support or refute approaches on the     S.W., Washington, D.C. 20201 on
ADDRESSES: Copies of this draft
           draft guidance. Two copies of any          Monday through Friday of each week
guidance are available on the Internet at
 comments are to be submitted, except       from 8:00 a.m. to 4:30 p.m.
‘‘http://www.fda.gov/cder/guidance/
       that individuals may submit one copy.      FOR FURTHER INFORMATION CONTACT:
index.htm’’. Submit written requests for
 Comments are to be identified with the      Susan Lemanski or Barbara
single copies of the draft guidance for
   docket number found in brackets in the     Frederickson, (202) 619–2078, Office of
industry to the Drug Information Branch
 heading of this document. The draft          Counsel to the Inspector General.
(HFD–210), Center for Drug Evaluation
     guidance document and received             SUPPLEMENTARY INFORMATION:
33870                  Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices

Background                                     • Responding promptly to detected                   As a result of the changing nature of
   The creation of compliance program       offenses and developing corrective                  the health care delivery system and the
guidance has become a major initiative      action.                                             growing trend toward reliance on the
of the OIG in its efforts to engage the        These elements are contained in the              managed care industry in the provision
private health care community in            other guidances issued by the OIG,                  of such health care delivery, the OIG
addressing and fighting fraud and abuse.    indicated above. As with the other                  believes it is appropriate to issue a
                                            guidances, this draft compliance                    guidance focusing on Medicare+Choice
In the last several years, the OIG has
                                            program guidance represents the OIG’s               organizations 2 offering coordinated care
developed and issued the following
                                            suggestions on how M+CO/CCPs can                    plans 3 (Medicare+Choice
compliance program guidance directed
                                            best establish internal controls and                organizations). The OIG believes that
at various segments of the health care
                                            monitoring to correct and prevent                   the implementation of compliance plans
industry:
   • Clinical Laboratories (62 FR 9435;     fraudulent activities. The contents of              in the managed care industry can
March 3, 1997, as amended in 63 FR          this guidance should not be viewed as               provide a mechanism for further
45076; August 24, 1998),                    mandatory or as an exclusive discussion             improving the quality, productivity and
   • Hospitals (63 FR 8987; February 23,    of the advisable elements of a                      efficiency of the health care industry as
1998),                                      compliance program. While elements                  a whole. This guidance is intended to
   • Home Health Agencies (63 FR            put forth in this draft compliance                  assist Medicare+Choice organizations
42410; August 7, 1998), and                 guidance are similar to elements HCFA               and their agents and subcontractors in
   • Third-Party Medical Billing            has included in its conditions to                   developing effective internal controls
Companies (63 FR 70138; December 18,        contract as an M+C organization, the                that promote adherence to applicable
1998).                                      guidance is intended to present                     Federal and State law and the program
   In addition, the OIG published a draft   voluntary guidance to the industry, and             requirements of Federal health plans.
compliance guidance for Durable             not represent binding standards for                    While the regulations implementing
Medical Equipment, Prosthetics,             M+CO/CCPs.                                          the Medicare+Choice program, or Part
Orthotics and Supply Industry (64 FR                                                            C, require a Medicare+Choice
                                            Public Input and Comment in
4435; January 28, 1999). The guidance                                                           organization to establish a compliance
                                            Developing Final Guidance
can also be found on the OIG web site                                                           plan,4 the OIG’s program guidance is
at http://www.dhhs.gov/progorg/oig.            In an effort to ensure that all parties          voluntary and simply is intended to
   On September 22, 1998, the OIG           have an opportunity to provide input                provide assistance for Medicare+Choice
published a solicitation notice seeking     into the OIG’s guidance, we are                     organizations looking for additional
information and recommendations for         publishing this guidance in draft form.             direction in the development and
developing formal guidance for M+CO/        We welcome any comments from                        implementation of a compliance
CCPs (63 FR 50577). In response to that     interested parties regarding this                   program. As such, this guidance
solicitation notice, the OIG received 5     guidance.′                                          addresses the OIG’s view on
comments from various parts of the             We will consider all comments that               comprehensive compliance programs
industry and their representatives. In      are received within the above-cited time            pertaining to Medicare+Choice
developing this notice for formal public    frame, incorporate any                              organizations.
comment, we have considered those           recommendations as appropriate, and                    The OIG formulated this guidance
comments, as well as previous OIG           will prepare and publish a final version            specifically for Medicare+Choice
publications, such as other compliance      of the M+CO/CCP guidance.                           organizations because these
program guidances, Special Fraud            Draft Compliance Program Guidance                   organizations are well-defined and
Alerts, reports issued by the OIG’s         for M+CO/CCPs (June 1999)                           somewhat limited in the statutory and
Office of Audit Services and Office of                                                          regulatory jurisdiction of the States, as
                                            I. Introduction                                     evidenced by the pre-emption
Evaluation and Inspections. We also
took into account past and recent fraud        In its ongoing effort to work
investigations conducted by the OIG’s       collaboratively with the health care                program guidance for home health agencies; and 63
                                                                                                FR 8987 (2/23/98) for compliance program guidance
Office of Investigations and the            industry to achieve the mutual goals of             for hospitals. These documents are also located on
Department of Justice, and have             quality health care and the elimination             the Internet at http://www.dhhs.gov/progorg/oig.
consulted directly with HCFA.               of fraud, waste and abuse, the Office of              2 A Medicare+Choice organization is defined as a

                                            Inspector General (OIG) of the                      public or private entity organized and licensed by
Elements Addressed in the Draft M+CO/       Department of Health and Human                      a State as a risk-bearing entity (with the exception
CCP Guidance                                Services (HHS) has encouraged
                                                                                                of provider-sponsored organizations receiving
                                                                                                waivers) that is certified by the Health Care
  This draft of M+CO/CCP guidance           voluntarily developed and implemented               Financing Administration (HCFA) as meeting the
contains the following 7 elements that      compliance programs for the health care             Medicare+Choice contract requirements. See 42
the OIG has determined are                  industry. As a demonstration of the                 CFR 422.2.
                                                                                                  3 For the purposes of this compliance program
fundamental to an effective compliance      OIG’s commitment to compliance, the                 guidance, a ‘‘coordinated care plan’’ is a plan that
program:                                    OIG has issued recommendations, in the              includes a network of providers that are under
  • Implementing written policies,          form of compliance program guidances,               contract or arrangement with the organization to
procedures and standards of conduct;        that provide suggestions regarding how              deliver the benefit package approved by HCFA. See
  • Designating a compliance officer        specific segments of the industry can               42 U.S.C. 1395w–28(a)(1); 42 CFR 422.4.
                                                                                                  4 The regulations require that any plan
and compliance committee;                   best implement compliance programs.1                contracting with HCFA implement a compliance
  • Conducting effective training and                                                           plan that encompasses the elements detailed in the
education;                                    1 See 64 FR 4435 (1/28/99) for the draft          Federal Sentencing Guidelines. See 42 CFR
  • Developing effective lines of           compliance program guidance for the durable         422.501(b)(vi). HCFA will release an operational
communication;                              medical equipment, prosthetics, orthotics and       policy letter addressing the compliance
  • Conducting internal monitoring and      suppliers industry; 63 FR. 70138 (12/18/98) for     requirements detailed in the regulation. In response
                                            compliance program guidance for third-party         to concerns from industry representatives on the
auditing;                                   medical billing companies; 63 FR 45076 (8/24/98)    short time frame for implementing a compliance
  • Enforcing standards through well-       for compliance program guidance for clinical        plan, HCFA delayed the actual implementation date
publicized disciplinary guidelines; and     laboratories; 63 FR 42410 (8/7/98) for compliance   of the compliance plan until January 1, 2000.
                              Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices                                          33871

provisions.5 In this guidance, we have                 (including decisions made on resources           • Improved communication with and
focused our attention on Federal health                devoted to compliance) of a                   satisfaction of Medicare+Choice
care regulations governing marketing,                  Medicare+Choice organization’s                enrollees;
enrollment, disenrollment,                             leadership as a measure of the                   • The ability to more quickly and
underutilization, data collection, anti-               organization’s commitment to                  accurately react to employees’
kickback statute and anti-dumping,                     compliance. Indeed, many organizations        operational compliance concerns and
rather than providing instruction on all               have adopted mission statements               the capability to effectively target
aspects of regulatory compliance. The                  articulating their commitment to high         resources to address those concerns;
OIG encourages managed care                            ethical standards.                               • A concrete demonstration to
organizations to read the guidance with                   Implementing an effective compliance       employees and the community at large
the whole organization in mind,                        program requires a substantial                of the Medicare+Choice organization’s
applying the guidance to whatever                      commitment of time, energy and                strong commitment to honest and
departments or divisions, including                    resources by senior management and the        responsible corporate conduct;
private-sector managed care areas, that                Medicare+Choice organization’s                   • The ability to obtain an accurate
are deemed appropriate. Indeed, many                   governing body. Superficial programs          assessment of employee and contractor
of the suggestions in this guidance can                that simply purport to comply with the        behavior relating to fraud and abuse;
be used by managed care organizations                  elements discussed and described in              • Improved (clinical and non-clinical)
that do not contract with HCFA. In                     this guidance, or programs hastily            quality of care and service;
particular, entities that participate in               constructed and implemented without              • Improved assessment tools that
other public health care programs, such                appropriate ongoing monitoring, will          could affect many or all of the
as Medicaid, may want to look to the                   likely be ineffective and could expose        Medicare+Choice organization’s
general principles in this document to                 the Medicare+Choice organization to           divisions or departments;
assist them in developing compliance                   greater liability than no program at all.        • Increased likelihood of
programs.                                              Although an effective compliance              identification and prevention of
  Within this document, the OIG first                  program may require significant               unlawful and unethical conduct;
provides its general views on the value                additional resources or a reallocation of        • A centralized source for distributing
and fundamental principles of                          existing resources, the long term             information on health care statutes,
Medicare+Choice organizations’                         benefits of implementing such a               regulations and other program directives
compliance programs, and then                          program significantly outweigh the            related to fraud and abuse;
                                                                                                        • An environment that encourages
provides specific elements that each                   costs. Undertaking a compliance
                                                                                                     employees to report potential problems;
Medicare+Choice organization should                    program is a beneficial investment that          • Procedures that allow the prompt,
consider when developing and                           advances the Medicare+Choice                  thorough investigation of possible
implementing an effective compliance                   organization, the health of                   misconduct by corporate officers,
program.                                               Medicare+Choice enrollees and the             managers, employees and independent
  Fundamentally, compliance efforts                    stability and solvency of the Medicare        contractors;
are designed to establish a culture                    program.                                         • An improved relationship with the
within an organization that promotes                                                                 Center for Health Plans and Providers
prevention, detection and resolution of                A. Benefits of a Compliance Program
                                                                                                     (CHPP) at HCFA;
instances of conduct that do not                          The OIG believes an effective
                                                                                                        • Early detection and reporting,
conform to Federal and State law and                   compliance program provides a
                                                                                                     minimizing the loss to the Government
Federal health care program                            mechanism that brings the public and
                                                                                                     from false claims, and thereby reducing
requirements, as well as the                           private sectors together to reach mutual      the Medicare+Choice organization’s
Medicare+Choice organization’s ethical                 goals of reducing fraud and abuse,            exposure to civil damages and penalties,
and business policies. In practice, the                improving operational quality,                criminal sanctions, and administrative
compliance program should effectively                  improving the quality of health care and      remedies, such as program exclusion; 6
articulate and demonstrate the                         reducing the costs of health care.            and
organization’s commitment to legal and                 Attaining these goals provides positive          • An enhancement of the structure of
ethical conduct. Eventually, a                         results to business, Government,              the Medicare+Choice organization’s
compliance program should become                       individual citizens and Medicare              separate business units.
part of the fabric of a Medicare+Choice                beneficiaries alike. In addition to              Overall, the OIG believes that an
organization’s routine operations.                     fulfilling its legal duty to ensure that it   effective compliance program is a sound
  It is incumbent upon a                               is not submitting false or inaccurate
Medicare+Choice organization’s officers                information to the Government or                6 The OIG, for example, will consider the
and managers to provide ethical                        providing substandard care to Medicare        existence of an effective compliance program that
leadership to the organization and to                  beneficiaries, a Medicare+Choice              pre-dated any governmental investigation when
                                                                                                     addressing the appropriateness of administrative
assure adequate systems and resources                  organization may gain numerous                sanctions. However, the burden is on the
are in place to facilitate and promote                 additional benefits by implementing an        Medicare+Choice organization to demonstrate the
ethical and legal conduct. Employees,                  effective compliance program. These           operational effectiveness of a compliance program.
managers and the Government will                                                                     Further, the False Claims Act, 31 U.S.C. 3729–3733,
                                                       benefits may include:                         provides that a person who has violated the Act, but
focus on the words and actions                            • The formulation of effective             who voluntarily discloses the violation to the
                                                       internal controls to assure compliance        Government within thirty days of detection, in
  5 See 42 U.S.C. 1395w–26(b)(3); 42 CFR 422.402.
                                                       with Federal regulations and internal         certain circumstances will be subject to not less
The Federal preemption provisions in the                                                             than double, as opposed to treble, damages. See 31
Medicare+Choice regulations cover: (1) any State
                                                       guidelines;                                   U.S.C. 3729(a). In addition, an organization will
statutes, regulations, contract requirements, or any      • Improved collaboration,                  receive sentencing credit for an ‘‘effective’’
other standards that would otherwise apply to          communication and cooperation                 compliance program under the Federal Sentencing
Medicare+Choice organizations only to the extent       between health care providers and the         Guidelines. See United States Sentencing
that such State laws are inconsistent with the                                                       Commission Guidelines, Guidelines Manual, 8C2.5.
standards under 42 CFR part 422; and (2) State laws
                                                       Medicare+Choice organization, as well         Thus, the ability to react quickly when violations
that are specifically preempted in 42 CFR              as within the Medicare+Choice                 of the law are discovered may materially reduce the
422.402(b).                                            organization itself;                          Medicare+Choice organization’s liability.
33872                  Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices

business investment that has the            organizations to develop and implement                 into consideration previous OIG
potential of enhancing the efficiency       compliance components that uniquely                    publications, such as Special Fraud
and effectiveness of the                    address the individual organization’s                  Alerts, the recent findings and
Medicare+Choice organization. It may        risk areas.                                            recommendations in reports issued by
also improve the Medicare+Choice               Implementing a compliance program                   OIG’s Office of Audit Services (OAS)
organization’s financial structure by       in the managed care industry is a                      and Office of Evaluation and
addressing not only fraud and abuse         complicated venture. There are                         Inspections (OEI), 10 comments from
concerns, but efficiency and                significant variances and complexities                 HCFA, as well as the experience of past
productivity concerns in other              among Medicare+Choice organizations                    and recent fraud investigations related
operational areas.                          in terms of the type of services and the               to managed care organizations 11
   The OIG recognizes the                   manner in which these services are                     conducted by OIG’s Office of
implementation of an effective              provided to the respective members. For                Investigations (OI) and the Department
compliance program may not entirely         example, some Medicare+Choice                          of Justice.
eliminate fraud, abuse and waste from       organizations cover broad service areas,                  As appropriate, this guidance may be
an organization. However, a sincere         while others are focused on a particular               modified and expanded as more
effort by a Medicare+Choice                 geographic region. Similarly, the range                information and knowledge is obtained
organization to comply with applicable      of benefits covered differ among plans.                by the OIG, and as changes in the law,
Federal and State standards, through the    Clearly, these differences may give rise               and in the rules, policies and
establishment of an effective               to different substantive policies to                   procedures of the Federal and State
compliance program, significantly           ensure effective compliance.                           plans occur. The OIG understands
reduces the probability of unlawful or      Furthermore, some Medicare+Choice                      Medicare+Choice organizations will
improper conduct.                           organizations are relatively small (such               need adequate time to react to these
                                            as provider-sponsored organizations                    modifications and expansions and to
B. Application of Compliance Program
                                            (PSOs)), while others are fully                        make any necessary changes to their
Guidance
                                            integrated and offer Medicare+Choice                   voluntary compliance programs. New
   Before explaining the specific           plans 8 in a wide variety of areas.                    compliance practices may eventually be
elements of a compliance program, it is     Finally, the availability of resources for             incorporated into this guidance if the
important to emphasize several aspects      any one Medicare+Choice organization                   OIG discovers significant enhancements
of this document: its voluntary nature,     can differ vastly.                                     to better ensure an effective compliance
its applicability to Medicare+Choice           Notwithstanding these differences,                  program. We recognize the development
organizations that offer coordinated care   this guidance is pertinent for all                     and implementation of compliance
plans, the collaborative nature by which    Medicare+Choice organizations, large or                programs in Medicare+Choice
it was developed, and its evolving          small, regardless of the type of services              organizations often raise sensitive and
nature.                                     provided. The applicability of the                     complex legal and managerial issues. 12
   First, it should be re-emphasized that   recommendations and guidelines                         However, the OIG wishes to offer what
while the regulations implementing the      provided in this document may depend                   it believes is critical guidance for those
Medicare+Choice program, or Part C,         on the circumstances and resources of                  who are sincerely attempting to comply
require a Medicare+Choice organization      each particular Medicare+Choice                        with the relevant health care statutes
to establish a compliance plan,             organization. However, regardless of the               and regulations.
including specified elements, 7 this        organization’s size and structure, the
program guidance is voluntary.                                                                     II. Compliance Program Elements
                                            OIG believes every Medicare+Choice
Although this document presents basic       organization can and should strive to                     The elements proposed by these
procedural and structural guidance for      accomplish the objectives and major                    guidelines are similar to those of the
designing a compliance program, it is       principles underlying all of the                       other OIG Compliance Program
not in itself a compliance program.         compliance policies and procedures                     Guidances 13 and our corporate integrity
Rather, it is a set of guidelines for       recommended within this guidance.                      agreements. 14 As noted above, the
consideration by a Medicare+Choice             The OIG recognizes that the success of              elements represent a guide that can be
organization interested in obtaining        the compliance program guidance                        tailored to fit the needs and financial
specific information on implementing a      hinges on thoughtful and practical                     realities of a particular
compliance program. This guidance           comments from those individuals and                    Medicare+Choice organization, large or
represents the OIG’s suggestions on how     organizations that will utilize the tools
a Medicare+Choice organization can          set forth in this document. In a
                                                                                                      10 Special Fraud Alerts are available on the OIG

establish internal controls and monitor                                                            website at
                                            continuing effort to collaborate closely               http://www.dhhs.gov/progorg/oig. The recent
company conduct to correct and prevent      with the private sector, the OIG solicited             findings and recommendations of OAS and OEI can
fraudulent activities.                      input and support from the public in the               be located on the Internet at http://www.hhs.gov/
   It is critical for the Medicare+Choice   development of this compliance                         progorg/oas/cats/hcfa.html and http://
organization to assess its own                                                                     www.hhs.gov/progorg/oei, respectively.
                                            program guidance. 9 Further, we took                      11 These investigations include findings based
organization and determine its needs                                                               upon Medicare risk-based Health Maintenance
with regard to compliance with                8 A ‘‘Medicare+Choice plan,’’ as defined in this     Organizations as defined in 42 U.S.C. 1395mm.
applicable Federal and State statutes       guidance, refers to health benefits coverage offered      12 Nothing stated herein should be substituted for,

and Federal health care program             under a policy or contract by a Medicare+Choice        or used in lieu of, competent legal advice from
                                            organization that includes a specific set of health    counsel.
requirements. By no means should the        benefits offered at a uniform premium and uniform         13 See note 1.
contents of this guidance be viewed as      level of cost sharing to all Medicare beneficiaries       14 Corporate integrity agreements are executed as
an exclusive discussion of the advisable    residing in the service area of the Medicare+Choice    part of a civil settlement agreement between the
components of a compliance program.         plan. See 42 CFR 422.2.                                health care provider and the Government to resolve
                                              9 See Solicitation of Information and                a case based on allegations of health care fraud or
On the contrary, the OIG strongly
                                            Recommendations for Developing the OIG                 abuse. These OIG-imposed programs are in effect
encourages Medicare+Choice                  Compliance Program Guidance for Certain                for a period of three to five years and require many
                                            Medicare+Choice Organizations. 63 FR 50577 (9/         of the elements included in this compliance
 7 See   note 4.                            22/98).                                                guidance.
                              Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices                                                     33873

small, regardless of the type of services              policies addressing dealings with                        provider and the Medicare+Choice
offered.                                               sanctioned and other specified                           organization. The OIG recommends this
   Every effective compliance program                  individuals; and                                         document enumerate those functions
must begin with a formal commitment 15                   (7) The development of policies to                     that are shared responsibilities and
by the Medicare+Choice organization’s                  respond to detected offenses and to                      those that are the sole responsibility of
governing body to include all of the                   initiate corrective action to prevent                    the Medicare+Choice organization.
applicable elements listed below. A                    similar offenses.
good faith and meaningful commitment                                                                            1. Standards of Conduct
                                                       A. Written Policies and Procedures
on the part of the Medicare+Choice                                                                                 Medicare+Choice organizations
organization’s administration, especially                Every compliance program should                        should develop standards of conduct for
the governing body and the chief                       require the development and                              all affected employees that include a
executive officer (CEO), will                          distribution of written compliance                       clearly delineated commitment to
substantially contribute to the program’s              policies, standards and practices that                   compliance by the organization’s senior
successful implementation. These                       identify specific areas of risk and                      management and its divisions. To help
elements are based on the seven steps of               vulnerability to the Medicare+Choice                     communicate a strong and explicit
the Federal Sentencing Guidelines. 16                  organization. These policies should be                   organizational commitment to
We believe every Medicare+Choice                       developed under the direction and                        compliance goals and standards, the
organization can implement all of the                  supervision of the chief compliance                      Medicare+Choice organization’s
recommended elements and expand                        officer and the compliance committee                     governing body, CEO, chief operating
upon them, as appropriate.                             and, at a minimum, should be provided                    officer (COO), general counsel, chief
   At a minimum, comprehensive                         to all individuals who are affected by                   financial officer (CFO) and other senior
compliance programs should include                     the particular policy at issue, including                officials should be directly involved in
the following seven elements:                          the Medicare+Choice organization’s                       the development of standards of
   (1) The development and distribution                agents and independent contractors.17                    conduct.
of written standards of conduct, as well                 Medicare+Choice organizations
                                                                                                                   The standards should function in the
as written policies and procedures, that               maintain ultimate responsibility for
                                                                                                                same fashion as a constitution, i.e., as a
promote the Medicare+Choice                            adhering to and otherwise fully
                                                                                                                foundational document that details the
organization’s commitment to                           complying with all terms and
                                                                                                                fundamental principles, values and
compliance and that address specific                   conditions of their contract with
                                                                                                                framework for action within an
areas of potential fraud (e.g., the                    HCFA.18 It is with this in mind that the
                                                                                                                organization, as well as the
marketing process, and                                 OIG strongly recommends that the
                                                                                                                organization’s mission and goals. The
underutilization);                                     Medicare+Choice organization
   (2) The designation of a chief                                                                               standards should also articulate the
                                                       coordinate with its first tier and
compliance officer and other                                                                                    Medicare+Choice organization’s
                                                       downstream providers to establish
appropriate bodies, e.g., a corporate                                                                           commitment to comply with all Federal
                                                       compliance responsibilities,19 in
compliance committee, charged with                                                                              and State standards, with an emphasis
                                                       addition to the contractual
the responsibility of operating and                                                                             on preventing fraud and abuse. The
                                                       responsibilities required by HCFA.20 For
monitoring the compliance program and                                                                           standards should not only address
                                                       example, OIG recommends that the
who report directly to the CEO and the                                                                          compliance with statutes and
                                                       Medicare+Choice organization
governing body;                                                                                                 regulations, but should also set forth
                                                       coordinate with its contracting
   (3) The development and                                                                                      broad principles that guide employees
                                                       providers regarding the steps that
implementation of regular, effective                                                                            in conducting business professionally
                                                       should be taken by the providers to
education and training programs for all                                                                         and properly. In short, the standards
                                                       verify and confirm to the
affected employees;                                                                                             should promote integrity, support
                                                       Medicare+Choice organization the
   (4) The development of effective lines                                                                       objectivity and foster trust. Furthermore,
                                                       accuracy of information and data
of communication between the                                                                                    a Medicare+Choice organization’s
                                                       submitted to the Medicare+Choice
compliance officer and all employees,                                                                           standards of conduct should reflect a
                                                       organization concerning patient
including a process, such as a hotline,                                                                         commitment to the highest quality
                                                       encounters and fee-for-service claims.
to receive complaints (and the adoption                                                                         health care delivery, as evidenced by its
                                                       Once the responsibilities have been
of procedures to protect the anonymity                                                                          quality, reliability and timeliness.
                                                       clearly delineated, they should be
of complainants and to protect callers                 formalized in legally enforceable written                2. Written Policies for Risk Areas
from retaliation);                                     arrangement between the health care
   (5) The use of audits or other risk                                                                            As part of its commitment to
evaluation techniques to monitor                         17 According  to the Federal Sentencing
                                                                                                                compliance, Medicare+Choice
compliance and assist in the reduction                 Guidelines, an organization must have established        organizations should establish a
of identified problem areas;                           compliance standards to be followed by its               comprehensive set of written policies
   (6) The development of disciplinary                 employees and other agents in order to receive           that address all applicable statutes, rules
                                                       sentencing credit. The Guidelines define ‘‘agent’’ as
mechanisms to consistently enforce                     ‘‘any individual, including a director, an officer, an
                                                                                                                and program instructions that apply to
standards and the development of                       employee, or an independent contractor, authorized       each function or department of the
                                                       to act on behalf of the organization.’’ See United       Medicare+Choice organization.21 The
  15 Formal commitment may include a resolution        States Sentencing Commission Guidelines,
by the board of directors, where applicable. A         Guidelines Manual, 8A1.2, Application Note 3(d).           21 This includes, but is not limited to, the
                                                          18 See 42 CFR 422.502(i).
formal commitment does include the allocation of                                                                Medicare+Choice provisions and the fraud and
adequate resources to ensure that each of the             19 At a minimum, the Medicare+Choice
                                                                                                                abuse provisions of the Balanced Budget Act of
elements is addressed.                                 organization should send a copy of its compliance        1997, Pub.L. 105–33; the civil False Claims Act, 31
  16 See United States Sentencing Commission           program manual to all of its health care providers.      U.S.C. 3729–3733; the criminal false claims
Guidelines, Guidelines Manual, 8A1.2, comment.         The Medicare+Choice organization should also             statutes, 18 U.S.C. 287, 1001; the fraud and abuse
(n.3(k)). The Federal Sentencing Guidelines are        coordinate with its health care providers in the         provisions of the Health Insurance Portability and
detailed policies and practices for the Federal        development of a training program, an audit plan         Accountability Act of 1996 (HIPAA), Pub.L. 104–
criminal justice system that prescribe appropriate     and policies for investigating misconduct.               191; and the civil monetary penalties in the Social
sanctions for offenders convicted of Federal crimes.      20 See 42 CFR 422.502(i)(3)–(4).                                                                 Continued
33874                        Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices

policies should address specific areas of             promulgated by HCFA and other                          HCFA’s detailed requirements relating
concern, such as marketing practices                  Federal agencies and should be                         to marketing their plans,26 OIG is
and data collection and submission                    considered de facto risk areas. Included               particularly concerned that
processes. In contrast to the standards of            among these risk areas are: (1) The                    organizations have policies regarding:
conduct, which are designed to be a                   election process; (2) benefits and                     (1) the completeness and accuracy of the
clear and concise collection of                       beneficiary protections; (3) quality                   marketing materials; and (2) marketing
fundamental standards, the written                    assurance; (4) premiums and cost                       personnel.
policies should articulate specific                   sharing; (5) solvency, licensure and                      Accurate and useful information is
procedures personnel should follow                    other State regulatory issues; (6) claims              crucial to the success of the
when performing their duties.                         processing; and (7) appeals and                        Medicare+Choice program. OIG is very
  In order to determine what policies                 grievance procedures. Given the                        concerned that Medicare+Choice
and procedures are needed, the OIG                    detailed nature of the rules and                       organizations correctly and completely
recommends that Medicare+Choice                       regulations, we have not attempted in                  describe plan information in any
organizations conduct a comprehensive                 this document to identify each and                     marketing materials or other materials
self-administered risk analysis or                    every policy that should be established                distributed to individuals once enrolled
contract for an independent risk                      by a Medicare+Choice organization.                     in the plan. Medicare+Choice
analysis by experienced health care                   Rather, based on a review OIG audits,                  organizations that misrepresent or
consulting professionals. This risk                   investigations and evaluations, we have                falsify information submitted to HCFA,
analysis should identify and rank the                 identified the following areas of                      individuals or entities are subject to
various compliance and business risks                 particular concern to OIG that the                     civil monetary penalties (CMPs).27
the company may experience in its daily               Medicare+Choice organization should                       The submission of inaccurate or
operations. A Medicare+Choice                         consider in developing its written                     misleading information is of particular
organization’s prior history of                       policies and procedures: 24                            concern in light of the recent study
noncompliance with applicable statutes,                 • Marketing materials and personnel;                 conducted by the General Accounting
regulations and Federal health care                     • Selective marketing and enrollment;                Office (GAO) that examined 16 managed
program requirements may indicate                       • Disenrollment;                                     care organizations and found that all
additional types of risk areas where the                • Underutilization and quality of                    organizations had distributed materials
organization may be vulnerable and may                care;                                                  containing inaccurate or incomplete
require necessary policy measures to                    • Data collection and submission                     benefit information.28 It should be noted
prevent avoidable recurrence.22                       processes;                                             that HCFA had reviewed and approved
  The fact that Medicare+Choice                         • Anti-kickback statute and other                    the materials from all the organizations
organizations may be both providers                   inducements; and                                       in the GAO study. Given this finding,
and insurers of health care increases the               • Anti-dumping statute.                              Medicare+Choice organizations should
number and type of risk areas to which                  As note above, the list is not all-                  take special care to ensure that all
a Medicare+Choice organization must                   encompassing and the Medicare+Choice                   marketing materials are accurate,
be attuned, as well as the type of                    organization should conduct additional                 notwithstanding whether the materials
auditing and monitoring procedures that               surveys and statistical analysis                       have been approved by HCFA.29
must be implemented, in the                           specifically tailored to the                              HCFA considers marketing materials
development of its compliance efforts.                organization’s beneficiary population                  to include any material used by a
For example, an individual                            and organizational structure.25                        Medicare+Choice organization to
Medicare+Choice organization may                        The following sections provide                       contact a Medicare beneficiary. As such,
contract with a variety of providers with             specific guidance regarding the types of               marketing materials go beyond the
different specialities and, consequently,             policies that should be implemented by                 public’s general conception of
must consider a variety of different risk             Medicare+Choice organizations.                         marketing materials and include general
areas.                                                                                                       circulation brochures, leaflets,
  The regulations and operational                     a. Marketing Materials and Personnel
                                                                                                             newspapers, magazines, television,
policies issued by HCFA that implement                  While each Medicare+Choice                           radio, billboards, yellow pages, the
the Medicare+Choice program are very                  organization must comply with all of                   Internet, slides and charts, and leaflets
comprehensive and should serve as the
                                                                                                             for distribution by providers. Such
basis for the policies and procedures of                24 Medicare+Choice organizations may also want
a Medicare+Choice organization.23 The                                                                        materials also include membership
                                                      to consult the OIG’s Work Plan when conducting
legal and policy requirements that                    the risk assessment. The OIG Work Plan details the
                                                                                                             communication materials such as
organizations must meet to qualify as a               various projects the OIG currently intends to          membership rules, subscriber
Medicare+Choice organization are                      address in the fiscal year. It should be noted that    agreements, or confirmation of
                                                      the priorities in the Work Plan are subject to         enrollment.30 Accordingly,
articulated in documentation                          modification and revision as the year progresses
                                                      and the Work Plan does not represent a complete           26 Medicare+Choice organizations should ensure
Security Act, 42 U.S.C. 1320a–7a and 42 U.S.C.        or final list of areas of concern to the OIG. The
                                                      Work Plan is currently available on the Internet at    that they conform to fair marketing standards as set
395w–27(g). See also 42 CFR 422.1–422.312.
  22 ‘‘Recurrence of misconduct similar to that       http://www.dhhs.gov/progorg/oig.                       forth in the statute, the Medicare Managed Care
                                                        25 Although many of these areas apply specifically
                                                                                                             National Marketing Guide (Marketing Guide)(which
which an organization has previously committed
                                                                                                             can be located on the HCFA Managed Care website
casts doubt on whether it took all reasonable steps   to Medicare+Choice organizations, many of the
                                                                                                             at http://www.hcfa.gov/medicare/mgd-ops.htm)
to prevent such misconduct’’ and is a significant     areas identified below have analogous issues in
                                                                                                             and all HCFA Operational Policy Letters affecting
factor in the assessment of whether a compliance      non-Medicare organizations. Medicare+Choice
                                                                                                             marketing matters.
program is effective. See United States Sentencing    organizations that provide private managed care           27 42 U.S.C. 1395w–27(g).
Commission Guidelines, Guidelines Manual, 8A1.2,      products should establish additional policies and
                                                                                                                28 ‘‘Medicare+Choice: New Standards Could
Application Note 3(7)(ii).                            procedures for risk areas that apply specifically to
  23 Medicare+Choice organizations should             those areas. Some overlap with Medicare+Choice         Improve Accuracy and Usefulness of Plan
regularly access the HCFA managed care website for    policies will likely occur, however                    Literature.’’ (GAO/HEHS–99–92)(April 1999).
                                                                                                                29 Medicare+Choice organizations may not
updates on operational policies and procedures.       Medicare+Choice organizations should segregate
Operational Policy Letters can be located on          any policies and procedures for which HCFA has         distribute marketing materials or election forms
HCFA’s website at http://www.hcfa.gov/medicare/       instituted specific reporting requirements for the     unless they are approved by HCFA. 42 CFR 422.80.
mgd-ops.htm.                                          Medicare population.                                      30 42 CFR 422.80(b).
                              Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices                                                     33875

Medicare+Choice organizations should                   individuals meet all HCFA guidelines.                  disability.38 Engaging in practices that
carefully scrutinize all of these materials            Similarly, it safeguards Medicare                      would reasonably be expected to have
for completeness, accuracy and                         beneficiaries from practices that could                the effect of denying or discouraging
compliance with HCFA rules.                            seriously endanger their access to health              enrollment by eligible individuals
   In verifying that marketing materials               care to which they are entitled, and                   whose medical condition or history
meet all HCFA requirements,                            their ability to acquire accurate and                  indicates the need for substantial future
Medicare+Choice organizations should                   complete information regarding their                   medical services subjects the
ensure that the materials contain an                   health care options.                                   Medicare+Choice organization to a
adequate written description of rules,                   Medicare+Choice organizations                        CMP.39
procedures, basic benefits and services,               should also be aware that OIG and                        Certain types of practices clearly fall
and an explanation of the grievance and                HCFA strongly discourage the use of                    into the category of cherry-picking and
appeals process.31 Of particular concern               physicians as marketing agents for                     Medicare+Choice organizations should
to HCFA and OIG is that the concept of                 several reasons: (1) physicians are                    implement policies to prohibit such
‘‘lock-in’’ is clearly explained in all                usually not fully aware of membership                  practices. For example, organizations
marketing material. Many Medicare                      plan benefits and costs; (2) physicians                should prohibit employees from
beneficiaries are unfamiliar with the                  may not be the best source of                          conducting medical screening, i.e.,
notion that managed care may limit                     membership information about their                     asking the beneficiary medical questions
their health care provider choices.                    patients; (3) when a physician acts                    prior to enrollment.40 In a 1996 survey,
Describing the process of selecting a                  outside his or her traditional role as care            the OIG found that such screening for
primary care physician and the                         provider, the physician’s patients may                 health status at application was reported
limitations that this places on a                      be confused as to when the physician is                by 18 percent of beneficiaries. While
Medicare+Choice enrollee’s choice of                   acting as an agent of the plan, and when               this represented a reduction from the
provider will significantly reduce the                 the physician is acting to further the                 1993 level of 43 percent, it still
unmet expectations of Medicare                         interests of the patient; and (4) a                    represents a potentially serious
beneficiaries.                                         physician’s knowledge of a patient’s                   problem.41
   Another important concept to include                health status increases the potential for                Another way in which
in the marketing materials is the fact                 discriminating in favor of Medicare                    Medicare+Choice organizations may
that the beneficiary may be terminated                 beneficiaries with positive health status              inappropriately target healthier
from enrollment in the plan due to the                 when acting as a marketing agent.35                    beneficiaries is by marketing their plans
decision of the Medicare+Choice                        Therefore, the organization should                     in places where healthy enrollees would
organization not to renew its contract                 develop procedures to prevent the use                  be more likely to be present, such as at
with HCFA, or due to HCFA’s decision                   of physicians in this way.                             health and exercise clubs, or in areas
to refuse to renew the contract.32 This                                                                       that are difficult to access for people
                                                       b. Selective Marketing and Enrollment
termination can affect the enrollee’s 33                                                                      with disabilities (e.g., upper floors of
eligibility for supplemental insurance                    OIG is very concerned about the                     buildings that do not have elevators).42
and other benefits.                                    practice known as ‘‘cherry-picking,’’ or               Similarly, organizations may
   Second, in light of the critical role               selective marketing,36 in which                        inappropriately provide inducements to
that marketing personnel play in                       Medicare+Choice organizations                          potential enrollees in a way that would
representing the plan to Medicare                      discriminate in the marketing and                      encourage younger, healthier
enrollees, the Medicare+Choice                         enrollment process based upon an                       beneficiaries to enroll in the plan. For
organization must take all appropriate                 enrollee’s degree of risk for costly or                example, the offering of free gym
steps to ensure that marketing personnel               prolonged treatment.37 Except for                      memberships or kayaking or other
are presenting clear, complete and                     individuals who have been medically                    sporting lessons would appeal to a
accurate information to potential                      determined to have end-stage renal                     healthy class of enrollees and
enrollees. To that end, OIG strongly                   disease, a Medicare+Choice                             discriminate against those who would
encourages Medicare+Choice                             organization may not deny, limit or                    not be interested in such activities.43
organizations to employ their own                      condition the coverage or furnishing of
marketing personnel, as opposed to                     benefits to individuals eligible to enroll               38 See   42 U.S.C. 1395w–22(b)(1); 42 CFR 422.110.
contracting these responsibilities to                  in a Medicare+Choice plan offered by                     39 42   U.S.C. 1857(g)(1)(D).
outside entities.34 This provides the                  the organization on the basis of any                      40 This screening can be done in a number of

Medicare+Choice organization the                       factor that is related to health status,               ways, such as by using cards or coupons requesting
                                                                                                              medical and other information as part of a survey
necessary control to ensure that these                 including, but not limited to, the                     to potential enrollees.
                                                       following: (1) Medical condition                          41 ‘‘Beneficiary Perspectives of Medicare Risk
  31 42   CFR 422.80(c).                               (including mental illness); (2) claims                 HMOs 1996.’’ (OEI–06–95–00430) (March 1998).
  32 42   CFR 422.80(c)(3).                            experience; (3) receipt of health care; (4)               42 In fact, Medicare+Choice organizations are
   33 Periodic on-site visits of the Medicare+Choice                                                          required to allocate part of their resources to
                                                       medical history; (5) genetic information;
organization’s operations, bulletins with                                                                     marketing to the Medicare population with
compliance updates and reminders, distribution of
                                                       (6) evidence of insurability; and (7)                  disabilities and beneficiaries aged 65 and over. 42
audiotapes or videotapes on different risk areas,                                                             CFR 422.80(e)(2)(i).
                                                         35 See  Marketing Guide, Chapter IV.
lectures at management and employee meetings,                                                                    43 The statute prohibits the provision of cash or
circulation of recent health care articles covering      36 OIG  is also concerned about a similar problem,   other monetary rebates as an inducement for
fraud and abuse and innovative changes to              known as ‘‘gerrymandering,’’ which is an attempt       enrollment in the plan. See 42 U.S.C. 1395w–
compliance training are various examples of            to eliminate certain high dollar risk areas from the   21(h)(4)(A). However, HCFA allows
approaches and techniques the compliance officer       Medicare+Choice organization’s service area.           Medicare+Choice organizations to give Medicare
can employ for the purpose of ensuring continued       Medicare+Choice organizations should be sure to        beneficiaries nominal value gifts, provided that the
interest in the compliance program and the             have policies in place to prohibit such practices.     plan offers these gifts whether or not the beneficiary
Medicare+Choice organization’s commitment to its          37 Although the Medicare+Choice program has         enrolls in the plan. HCFA defines nominal value as
principles and policies.                               attempted to alleviate many of the selective           an item having little or no resale value (generally,
   34 It should be noted that Medicare+Choice          marketing practices through the use of risk            less than $10), which cannot be readily converted
organizations have ultimate responsibility for the     adjustment, the phase-in period for risk-adjustment    into cash. See Marketing Guide, Chapter II. The use
acts and omissions of its marketing agents. See 42     virtually assures that this will remain a troubling    of inducements is also discussed in Section
CFR 422.502(i).                                        issue at least through 2004.                           II.B.2.f.—Anti-kickback and Other Inducements.
33876                        Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices

  Other examples of cherry-picking                   avert their own costs at a high cost to                 the patient’s health status, medical care,
would be: (1) attempts to give                       the Medicare system.                                    and treatment options, the risks,
enrollment priority to newly eligible                  Each Medicare+Choice organization                     benefits and consequences of treatment
Medicare beneficiaries (who are                      must implement policies to ensure that                  or non-treatment, or the opportunity for
theoretically younger and healthier); (2)            inappropriate disenrollment does not                    the individual to refuse treatment and to
the tracking of costs incurred by                    occur. Such policies should include                     express preferences about future
enrollees who were enrolled in different             clarification of when it is appropriate                 treatment options.49 Failure to comply
settings (e.g., at the health fair, or at a          for medical personnel to discuss the                    with this requirement can lead to
health club), which could be used to                 concept of disenrollment. Generally                     sanctions.50
target healthier enrollees in the future;            speaking, OIG believes it would be                         Second, Medicare+Choice
or (3) re-enrollment campaigns targeting             inappropriate for medical personnel to                  organizations should be sure, to the
past plan subscribers who had low                    initiate discussion of disenrollment or                 extent that they utilize physician
medical costs. There are many other                  to promote disenrollment except in the                  incentive plans (PIPs) in their payment
subtle ways in which a                               rare circumstance where the                             arrangements with individual
Medicare+Choice organization may try                 Medicare+Choice organization cannot                     physicians or physician groups, that
to enroll healthy patient populations                provide the covered medical items or                    they comply with all applicable
and the organization should implement                services needed by the patient.                         regulations. The PIPs raise utilization
policies to prohibit such practices.                                                                         concerns because they are defined as
                                                     d. Underutilization and Quality of Care
c. Disenrollment                                                                                             ‘‘any compensation arrangement that
                                                        Medicare+Choice organizations must                   may directly or indirectly have the
   In general, Medicare+Choice                       ensure that all covered services are                    effect of reducing or limiting services
organizations are prohibited from                    available and accessible to all                         provided to plan enrollees.’’ 51 Any PIP
disenrolling, or requesting or                       enrollees.47 OIG views the inappropriate                operated by a Medicare+Choice
encouraging (either by action or                     withholding or delay of services, known                 organization must comply with the
inaction) an individual to disenroll from            as underutilization or ‘‘stinting,’’ as a               following requirements. First, it may
any plan it offers.44 If a                           serious concern.48 Examples of practices                make no payments to physicians (such
Medicare+Choice organization acts to                 that can lead to underutilization and                   as offerings of monetary value,
expel or refuses to reenroll an                      poor quality include the failure to                     including, but not limited to, stock
individual in violation of the statute, a            employ or contract with sufficient                      options or waivers of debt 52) to reduce
civil monetary penalty can be imposed                institutional and individual providers to               or limit medically necessary services.
on the organization.45 OIG is                        accommodate all enrollees, the failure to               Second, if the PIP puts a physician or
particularly concerned about                         provide geographically reachable                        physician group at ‘‘substantial
disenrollment in light of its recent                 services to enrollees, the delay in                     financial risk’’ 53 for referral services, the
review, which revealed that there was a              approving or failure to approve referrals               Medicare+Choice organization must: (1)
problem with disenrollment of                        for covered services, the establishment                 survey current and previously enrolled
beneficiaries just prior to receiving                of utilization review procedures that are               members to assess access to and
expensive inpatient services.46                      so burdensome that an enrollee could                    satisfaction with the quality of services;
   In this review, OIG found that                    not reasonably be expected to fulfill the               and (2) assure that there is adequate and
Medicare paid for inpatient hospital                 requirements, and the categorical denial                appropriate stop-loss protection.54
services amounting to $224 million in                of payment of claims.                                   Finally, Medicare+Choice organizations
fee-for-service (FFS) payments within                   There are a wide variety of policies                 must disclose certain information
three months of beneficiaries’                       that a Medicare+Choice organization                     regarding their PIPs. These disclosure
disenrollment from six risk plans during             should implement to be sure it is                       requirements apply to direct contracting
1991 through 1996. Had these                         providing all medically necessary                       arrangements, as well as subcontracting
beneficiaries not disenrolled, Medicare              services to its enrollees. The regulations              arrangements.55
would have paid the HMOs $20 million                 and guidelines that implement the                          In general, Medicare+Choice
in monthly capitation payments. Had                  Medicare+Choice program contain                         organizations should take all necessary
the beneficiaries remained in the HMOs,              numerous provisions that deal with this                 steps to ensure that they comply with
Medicare would have saved $204                       issue. While we have not attempted to                   the Guidance on Disclosure of Physician
million in expenditures. Included in the             develop a comprehensive list in this                    Incentive Plan, the Guidance on Surveys
Medicare FFS payments were $41                       document, we would like to highlight                    required by the Physician Incentive Plan
million for beneficiaries who                        three types of policies that                            Regulation and the Physician Incentive
disenrolled, had FFS procedures                      Medicare+Choice organizations should                    Plan Regulation Requirements.56
performed, and then reenrolled into                  develop that may help address
another or the same managed care plan.               underutilization and quality of care.                     49 42  U.S.C. 1395w–22(j)(3), 42 C.F.R. § 422.206.
   While this study did not identify the                First, Medicare+Choice organizations                   50 42  U.S.C. 1395w–27(g)(1)(F).
reasons for the disenrollment as part of             should have policies that prohibit                         51 See 42 CFR 422.208.

this review, one partial explanation of              interference with health care                              52 See 42 U.S.C. 1395w–22(j)(4); 42 CFR 422.208.
                                                                                                                53 ‘‘Substantial financial risk’’ threshold is set at
the review is that some managed care                 professionals’ advice to enrollees. Also
                                                                                                             25 percent of potential payments for covered
plans may be encouraging sicker                      known as the ‘‘gag rule,’’ this                         services, regardless of the frequency of assessment
beneficiaries to disenroll as a way to               prohibition extends to advice regarding                 (i.e., collection) or distribution of payments. See 42
                                                                                                             CFR 422.208.
  44 Medicare+Choice organizations are entitled to     47 42                                                    54 See 42 CFR 422.208(c).
                                                             U.S.C. 1395w–22.
disenroll individuals under certain circumstances,     48 Medicare+Choice    organizations can be subject       55 See 42 CFR 422.210(a).
e.g., failure to pay premiums or engagement in       to sanction for failing substantially to provide           56 These documents can be found on the HCFA
disruptive behavior. 42 CFR 422.74.                  medically necessary items and services that are         managed care website at http://www.hcfa.gov/
  45 42 U.S.C. 1857(g)(1)(C).
                                                     required to be provided, if the failure has adversely   medicare/mgd-ops.htm. Disclosure forms can be
  46 ‘‘Review of Inpatient Services Performed on     affected (or has the substantial likelihood of          located at HCFA’s website at http://www.hcfa.gov/
Beneficiaries After Disenrolling from Medicare       adversely affecting) the individual. 42 U.S.C.          medicare/physincp/pip-info.htm. Medicare+Choice
Managed Care.’’ (A–07098–01256) (May 1999).          1395w–27(g)(1)(A).                                      organizations may elect paperless PIP disclosure.
                             Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices                                                    33877

   Finally, OIG is aware of cases in                 adjusted community rate (ACR)                           Medicare+Choice organizations should
which beneficiaries have received                    proposal.61 When a Medicare+Choice                      have clearly defined criteria for
covered services from individuals that               organization submits this type of data to               claiming reimbursement for their
were not appropriately licensed. Given               HCFA, it is making a ‘‘claim’’ for                      administrative costs. These costs should
the serious quality of care implications             capitation payment in the amount                        not include any costs that are directly
of this type of practice, OIG is                     dictated by the data submitted, or in the               associated with furnishing patient care.
particularly concerned that                          case of the ACR submission, a ‘‘claim’’                 All such costs should be allocated to the
Medicare+Choice organizations have                   to retain the portion of the capitation                 applicable operating component. The
procedures for the selection of                      amount that is under the ACR amount,                    OIG has articulated serious concerns
providers, including criteria for the                rather than providing additional                        about the methodology used by
credentialing of providers. This process             benefits. When a Medicare+Choice                        managed care organizations in
should include an application,                       organization is claiming payment (or the                computing their administrative rate on
verification of information and a site               right to retain payment) based upon                     the ACR proposal.64 For example,
visit, where applicable.57 The                       information submitted to HCFA, it must                  computing an administrative rate based
information that must be verified                    take responsibility for having taken                    on the use of a medical utilization factor
includes that the individual has a valid             reasonable steps to assure the accuracy                 could generate a payment that is almost
license to practice, clinical privileges in          of this information. The attestation                    three times what would be charged on
good standing and appropriate                        forms developed by HCFA for this                        the commercial side. The OIG believes
educational qualifications.                          purpose require certification that the                  that the allocation of ‘‘administration’’
                                                     information submitted is true and                       should be determined in accordance
e. Data Collection and Submission
                                                     accurate based on best knowledge,                       with the Medicare program’s
Processes
                                                     information, and belief.                                longstanding principle that Medicare
   The regulations implementing the                     The requirement that the CEO or CFO                  only pay its applicable or fair share of
Medicare+Choice program contain                      certify as to the accuracy, completeness                needed costs.
numerous requirements relating to the                and truthfulness of data, based on best                   Second, OIG recommends that
data collection and submission process,              knowledge, information and belief, does                 Medicare+Choice organizations have
ranging from a requirement for an                    not constitute an absolute guarantee of                 adequate internal controls in place to
effective system for receiving,                      accuracy. Rather, it creates a duty on the              ensure that the institutional status of
controlling, and processing election                 Medicare+Choice organization to put in                  beneficiaries is reported accurately.65 A
forms 58 to requirements for the timely              place an information collection and                     recent report issued by OIG estimated
submission of disenrollment notices.59               reporting system reasonably designed to                 that risk-based HMOs received Medicare
These requirements cover the gamut of                yield accurate information.                             overpayments of $22.2 million for
requirements with which a                            Furthermore, the Medicare+Choice                        beneficiaries incorrectly classified as
Medicare+Choice organization must                    organization must conduct audits and                    institutionalized.66 The incorrect
comply and are too detailed to                       spot checks of this system to verify                    classification was largely due to
enumerate in this document.                          whether it is yielding accurate                         deficiencies in the HMOs internal
Medicare+Choice organizations should                 information.                                            controls in two areas: (1) Verification of
establish a policy that all required                    The knowing submission of false                      beneficiaries’ institutional status; and
submissions to HCFA be accurate,                     information to HCFA can lead to serious                 (2) reporting of institutional
timely and complete and that all                     criminal or civil penalties.62                          beneficiaries to HCFA. The results were
appropriate reporting requirements are               Medicare+Choice organizations should                    based on audits of eight statistically
met.60                                               be sure to implement policies so that the               selected HMOs.
   OIG is particularly concerned that                enrollment, encounter and ACR data
Medicare+Choice organizations submit                                                                         f. Anti-kickback Statute and Other
                                                     submitted to HCFA is accurate,                          Inducements
accurate information when that data                  complete and truthful. While
determines the amount of payment                     information from a variety of sources                      The anti-kickback statute provides
received from HCFA. The regulations                  can affect this data, Medicare+Choice                   criminal penalties for individuals or
require that when a Medicare+Choice                  organizations should take note of two                   entities that knowingly and willfully
organization requests payment under                  reports issued by the OIG that have                     offer, pay, solicit or receive
the contract, the CEO or CFO must                    found problems in two pieces of this                    remuneration to induce the referral of
certify the accuracy, completeness and               data.                                                   business reimbursable under a Federal
truthfulness of relevant data, including                First, OIG recommends that                           health care program (including
enrollment data, encounter data, and                 Medicare+Choice organizations have                      Medicare and Medicaid).67 The anti-
information provided as part of an                   policies and procedures in place that
                                                     ensure that the administrative                          that are incurred by or allocated to a business unit
The PIP Data Entry Software is available on the                                                              for the management or administration of the
                                                     component of the ACR is calculated                      business unit as a whole.
Internet at http://www.fu.com/HPMS.
  57 42 CFR 422.204.                                 accurately.63 As part of this process,                    64 See e.g., ‘‘Administrative Costs Submitted by

  58 42 CFR 422.60(e).                                                                                       Risk-Based Health Maintenance Organizations on
  59 42 CFR 422.66(b)(3)(i).                           61 42 CFR 422.502(l) and (m). See Contract for        the Adjusted Community Rate Proposals are Highly
  60 On a related topic, Medicare+Choice             Year 2000, Attachments A, B and C.                      Inflated.’’ (A–14–97–00202) (July 1998).
                                                       62 Falsification of documentation in any                65 This will remain a concern until risk
organizations should also be sure that their
computer systems are Year 2000 (Y2K) compliant.      application for any benefit or payment under a          adjustment is fully implemented.
A May 1999 OIG report indicates that based on a      Federal health care program is a Federal offense          66 ‘‘Review of Medicare Managed Care Payments

survey of Medicare managed care organizations,       punishable by not more than $25,000 or                  for Beneficiaries with Institutional Status.’’ (A–05–
only 22 percent were Y2K ready, with two-thirds      imprisonment for 5 years, or both. See 42 U.S.C.        98–00046) (April 1999).
of the remainder reporting that they will be ready   1320a–7b. In addition, a CMP can be imposed for           67 42 U.S.C. 1320a–7b(b). If it is determined that

by December 31, 1999. The majority of the            the misrepresentation or falsification of information   a party has violated the anti-kickback statute, the
respondents were unaware of the Y2K readiness of     submitted to HCFA under Medicare+Choice. See 42         individual or entity can be excluded from
their subcontractors. ‘‘Y2K Readiness of Managed     U.S.C. 1395w–27(g)(1)(E).                               participation in the Medicare and other Federal
Care Organizations.’’ (OEI–005–98–00590) (May          63 The administrative component of the ACR            health care programs (as defined in 42 U.S.C.
1999).                                               covers any management, financial or other costs                                                     Continued
33878                         Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices

kickback statute potentially applies to                 this is a broad exception, there are three    kickback statute and should not be
many managed care arrangements                          important limitations.                        protected.
because a common strategy of these                         The first significant limitation is that      A second limitation on the regulatory
arrangements is to offer physicians,                    there is no protection if the financial       safe harbor protection is that it only
hospitals and other providers increased                 arrangements under the managed care           applies to remuneration for health care
patient volume in return for substantial                agreement are implicitly or explicitly        items and services and those items or
fee discounts. Because discounts to                     part of a broader agreement to steer fee-     services reasonably related to the
managed care organizations can                          for-service Federal health care program       provision of health care items and
constitute ‘‘remuneration’’ within the                  business to the entity giving the             services. It does not cover marketing
meaning of the anti-kickback statute, a                 discount to induce the referral of            services or any services provided prior
number of health care providers have                    managed care business. Specifically, we       to a beneficiary’s enrollment in a health
expressed concern that many relatively                  understand that most managed care             plan.
innocuous, or even beneficial,                          organizations have multiple
commercial managed care arrangements                    relationships with their contractors and         Finally, the broad protection is
implicate the statute and may subject                   subcontractors for the provision of           limited to risk-based managed care
them to criminal prosecution and                        services for various product lines,           plans that do not claim any payment
administrative sanctions.                               including non-federal HMOs, preferred         from a Federal health care program
                                                        provider organizations (PPOs) and point       other than the capitated amount set
   The OIG recognizes that when                                                                       forth in the managed care organization’s
managed care organizations are paid a                   of service networks. Consequently,
                                                        although neither a managed care               agreement with the Federal health care
capitated amount for all of the services                                                              program. Where the managed care plan,
they provide regardless of the dates,                   organization receiving a capitated
                                                        payment from a Federal health care            its contractors or its subcontractors are
frequency or type of services, there is no                                                            permitted to seek additional payments
incentive for them to overutilize. In any               program nor its contractors or
                                                        subcontractors has an incentive to            from any of the Federal health care
event, even if overutilization occurs, the                                                            programs, the regulatory safe harbor
Federal health care programs are not at                 overutilize items or services or pass
                                                        additional costs back to the Federal          protection is significantly more limited.
risk for these increased costs.                                                                       For example, protection is not extended
Accordingly, OIG will be issuing a safe                 health care programs under the
                                                        capitated arrangement, we are                 to arrangements with subcontractors
harbor from the anti-kickback statute                                                                 when the contract under section 1876 of
that will provide protection for certain                concerned that a managed care
                                                        organization or contractor may offer (or      the Social Security Act is cost-based or
financial arrangements between                                                                        where the prime contract is protected
managed care organizations (including                   be offered) a reduced rate for its items
                                                        or services in the Federal capitated          solely because the contracting entity is
Medicare+Choice organizations offering                                                                a Federally-qualified HMO. In the first
coordinated care plans) and individuals                 arrangement in order to have the
                                                        opportunity to participate in other           instance, reimbursement from the
or entities with whom they contract for                                                               Federal health care program is based on
the provision of health care items or                   product lines that do not have stringent
                                                        payment or utilization constraints. This      costs, and in the latter case, services for
services, where a Federal health care                                                                 Medicare enrollees are reimbursed on a
program pays such organizations on a                    practice is a form of a practice known
                                                        as ‘‘swapping;’’ in the case of managed       fee-for-services basis. In both instances,
capitated basis.68                                                                                    reimbursement will increase with
                                                        care arrangements, low capitation rates
   In general, the safe harbor protects                 could be traded for access to additional      utilization, thus providing the same
payments between managed care                           fee-for-service lines of business. We are     incentive to overutilize as any fee-for-
organizations (including                                concerned when these discounts are in         service payment methodology.
Medicare+Choice organizations offering                  exchange for access to fee-for-service           While the new safe harbor will
coordinated care plans) and individuals                 lines of business, where there is an          provide protection from the anti-
or entities with which it has direct                    incentive to overutilize services             kickback statute for most arrangements
contracts to provide or arrange for the                 provided to Federal health care program       between Medicare+Choice organizations
provision of items or services.69 While                 beneficiaries.                                and their contractors, Medicare+Choice
                                                           For example, we would have concerns        organizations should also have policies
1320a–7b(f)). 42 U.S.C. 1320a–7(b)(7). In addition,                                                   in place that ensure that any incentives
there is an administrative CMP provision for
                                                        where an HMO with a Medicare risk
violating the anti-kickback statute. 42 U.S.C. 1320a–   contract under Medicare Part C also has       offered to beneficiaries and potential
7a(a)(7).                                               an employer-sponsored PPO that                beneficiaries do not run afoul of the
   68 This safe harbor was developed in accordance
                                                        includes retirees and requires                anti-kickback statute or the new civil
with section 216 of HIPAA and section 14 of the         participating providers to accept a low       monetary penalty relating to incentives
Medicare and Medicaid Patient and Program
Protection Act of 1987 (Pub. L. 100–93) through a       capitation rate for the Medicare HMO          to beneficiaries.70 The CMP was enacted
negotiated rulemaking process that began in the         risk patients in exchange for access to       in section 231(h) of HIPAA (42 U.S.C.
spring of 1997. For a more detailed description of      the Medicare fee-for-service patients in      320a–7a(a)(5)) and imposes sanctions
the negotiated rulemaking, see the Committee            the PPO. Although in such                     against individuals or entities that offer
Statement of the Negotiated Rulemaking Committee
on the Shared Risk Exception (January 22, 1998),        circumstances the cost to the Medicare        remuneration to a program beneficiary
which can be found on the Internet at http://           program for the risk-based HMO                that they know, or should know, will
www.dhhs.gov/progorg/oig.                               beneficiaries will not be increased, there    influence the beneficiary’s decision to
   69 In addition, arrangements between direct
                                                        may be increased expenditures for             order or receive items or services from
contractors and all subcontractors or successive                                                      a particular provider, practitioner or
tiers of subcontractors are protected, as long as the
                                                        Medicare beneficiaries in the PPO
arrangement is for the provision of health care items   arrangement, because the providers may
or services that are covered by the arrangement         have an incentive to increase services to       70 Our concerns regarding the use of inducements

between the direct contractor and the managed care      the Medicare enrollees in the PPO to          in a manner that leads to enrollment of only healthy
organization and the arrangement meets the                                                            beneficiaries, such as offering memberships to
requirements applicable to arrangements between
                                                        offset the discounted rates to the            exercise clubs for purposes of patient screening, is
the direct contractor and the managed care              Medicare HMO. Accordingly, such               discussed above in Section II.B.2.b.-Selective
organization.                                           arrangements could violate the anti-          Marketing and Enrollment.
                             Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices                                              33879

supplier reimbursable by Medicare or                personnel to leave the hospital without             program. The documentation necessary
the State health care programs.                     obtaining necessary care.72                         to satisfy the third requirement
   Pending the publication of the final               It is the view of OIG and HCFA that               includes: evidence of adequate
rule implementing this CMP, we can                  the anti-dumping statute requires that              employee training; reports from the
provide the following guidance. It is our           notwithstanding the terms of any                    Medicare+Choice organization’s hotline;
view that organizations that provide                managed care contractual arrangements,              results of any investigation conducted
incentives to Federal health care                   the provisions of the anti-dumping                  as a consequence of a hotline call;
program beneficiaries to enroll in a plan           statute govern the obligations of                   modifications to the compliance
are not offering remuneration to induce             hospitals to screen and provide                     program; self-disclosure; all written
the enrollees to use a particular                   stabilizing treatment to any patient                notifications to providers regarding
provider, practitioner or supplier.                 presenting at an emergency facility. No             compliance activities; 73 and the results
Accordingly, we anticipate that                     contract between a hospital and                     of the Medicare+Choice organization’s
organizations that provide incentives to            managed care organization can excuse                auditing and monitoring efforts.
enroll in a plan will not be subject to             the hospital from the anti-dumping                     In light of the increasing reliance on
sanctions under this provision.                     statute obligations. Once a                         electronic data interchange by the
However, incentives provided by                     Medicare+Choice enrollee comes to the               health care industry, Medicare+Choice
organizations to induce a beneficiary to            hospital that offers emergency services,            organizations should take particular
use a particular provider, practitioner or          the law requires that the hospital must             care in establishing procedures for
supplier once the beneficiary has                   provide the services required under the             maintaining the integrity of its data
enrolled in a plan are within the                   anti-dumping statute without regard to              collection systems. This should include
purview of this CMP and are prohibited              the patient’s insurance status or any               procedures for regularly backing-up data
if they do not meet an exception. For               prior authorization of such insurance.              (either by diskette, restricted system or
example, incentives given to                        All Medicare+Choice organizations                   tape) collected in connection with all
beneficiaries by a particular physician             should have policies in place to ensure             aspects of the Medicare+Choice program
group within the physician panel of a               that these requirements are met.                    requirements.
Medicare+Choice organization to                       Medicare+Choice organizations
encourage the beneficiary to use that               should be particularly careful of these             4. Compliance as an Element of a
physician group over another physician              requirements in the event that they                 Performance Plan
in the panel would be prohibited.                   participate in the so-called ‘‘dual                    Compliance programs should require
                                                    staffing’’ of emergency departments.                that the promotion of, and adherence to,
g. Anti-Dumping                                     Dual staffing refers to the situation               the elements of the compliance program
   The OIG and HCFA believe that there              where hospitals have entered into                   be a factor in evaluating the
may be special concerns regarding the               arrangements allowing a managed care                performance of all employees.
provision of emergency services to                  organization to station its own                     Employees should be periodically
enrollees of Medicare+Choice plans.                 physicians in the hospital’s emergency              trained in new compliance policies and
The anti-dumping statute 71 imposes                 department for the purpose of screening             procedures. Policies should require that
specific obligations on Medicare-                   and treating managed care enrollees.                managers:
participating hospitals that offer                  Implementation of dual staffing raises                 • Discuss with all supervised
emergency services to individuals                   some concerns under the anti-dumping                employees and relevant contractors the
presenting themselves at the hospital               statute, particularly where different               compliance policies and legal
seeking possible emergency treatment.               procedures and protocols have been                  requirements applicable to their
While the obligations under the anti-               established for each staff.                         function;
dumping statute prohibit a hospital                 3. Retention of Records and Information                • Inform all supervised personnel
from inquiring into the patient’s method            Systems                                             that strict compliance with these
of payment or insurance status, it has                                                                  policies and requirements is a condition
come to our attention that many                        Medicare+Choice organizations’
                                                    compliance programs should provide                  of employment; and
hospitals routinely seek authorization
                                                    for the implementation of a records                    • Disclose to all supervised personnel
from a Medicare+Choice enrollee’s
                                                    retention system. This system should                that the Medicare+Choice organization
primary care physician or from the
                                                    establish policies and procedures                   will take disciplinary action up to and
Medicare+Choice organization when a
                                                    regarding the creation, distribution,               including termination for violation of
Medicare+Choice enrollee requests
                                                    retention, storage, retrieval and                   these policies or requirements.
emergency services. The OIG and HCFA
are cognizant that many managed care                destruction of documents. The three                    In addition to making performance of
organizations require their enrollees to            types of documents developed under                  these duties an element in evaluations,
seek prior authorization for some                   this system should include: (1) All                 the compliance officer or company
medical services, including emergency               records and documentation required by               management should include a policy
services and that there are                         either Federal or State law and the                 that managers and supervisors will be
circumstances when patients should be               program requirements of Federal and                 sanctioned for failure to instruct
informed of their potential financial               State health plans; (2) records listing the         adequately their subordinates or for
liability. However, both the OIG and                persons responsible for implementing                failure to detect noncompliance with
HCFA have concerns that a                           each part of the compliance plan; and               applicable policies and legal
Medicare+Choice enrollee may be                     (3) all records necessary to protect the            requirements, where reasonable
unduly influenced by hospital                       integrity of the Medicare+Choice                    diligence on the part of the manager or
                                                    organization’s compliance process and               supervisor should have led to the
  71 See 42 U.S.C. 1395dd. A separate provision     confirm the effectiveness of the                    discovery of any problems or violations.
prohibits Medicare+Choice organizations requiring
enrollees to obtain prior authorization for           72 OIG and HCFA have issued a proposed Special      73 This should include notifications regarding

emergency services. See 42 U.S.C. 1395w–            Advisory Bulletin on this topic. See 63 FR. 67486   quality of care issues; confusing or inaccurate
22(d)(1)(E).                                        (12/7/98).                                          encounter data; and termination of the contract.
33880                          Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices

B. Designation of a Compliance Officer                   violate statutory or regulatory                        coordinate internal investigations (e.g.,
and a Compliance Committee                               requirements.                                          responding to reports of problems or
                                                            Coordination and communication are                  suspected violations) and any resulting
1. Compliance Officer
                                                         the key functions of the compliance                    corrective action with all departments,
   Every Medicare+Choice organization                    officer with regard to planning,                       providers and sub-providers, agents
should designate a compliance officer to                 implementing and monitoring the                        and, if appropriate, independent
serve as the focal point for compliance                  compliance program. With this in mind,                 contractors;
activities. This responsibility may be the               the OIG recommends the                                    • Developing policies and programs
individual’s sole duty or added to other                 Medicare+Choice organization’s                         that encourage managers and employees
management responsibilities, depending                   compliance officer closely coordinate                  to report suspected fraud and other
upon the size and resources of the                       compliance functions with providers’                   improprieties without fear of retaliation;
Medicare+Choice organization and the                     compliance officers.                                   and
complexity of the task.                                     The compliance officer should have                     • Continuing the momentum of the
                                                         sufficient funding and staff to fully                  compliance program and the
   Designating a compliance officer with                                                                        accomplishment of its objectives long
                                                         perform his or her responsibilities.
the appropriate authority is critical to                                                                        after the initial years of implementation.
                                                         These duties should include:
the success of the program, necessitating
                                                            • Overseeing and monitoring the                     2. Compliance Committee
the appointment of a high-level official
                                                         implementation of the compliance
in the Medicare+Choice organization                                                                                The OIG recommends that a
                                                         program; 75
with direct access to the company’s                                                                             compliance committee be established to
                                                            • Reporting on a regular basis to the
governing body, the CEO and all other                                                                           advise the compliance officer and assist
                                                         Medicare+Choice organization’s
senior management and legal counsel.74                                                                          in the implementation of the
                                                         governing body, CEO and compliance
While it is important that the                                                                                  compliance program.77 When
                                                         committee on the progress of
compliance officer have appropriate                                                                             assembling a team of people to serve as
                                                         implementation and assisting these
authority, we are not suggesting that the                                                                       the Medicare+Choice organization’s
                                                         components in establishing methods to
compliance officer should have                                                                                  compliance committee, the company
                                                         improve the Medicare+Choice
programmatic responsibility for the                                                                             should include individuals with a
                                                         organization’s efficiency and quality of
various aspects of the Medicare+Choice                                                                          variety of skills.78 The OIG strongly
                                                         services and to reduce the
program. For example, the compliance                                                                            recommends that the compliance officer
                                                         Medicare+Choice organization’s
officer should have full authority to stop                                                                      manage the compliance committee.
                                                         vulnerability to fraud, abuse and waste;
the submission of data that he or she                                                                           Once a managed care organization
                                                            • Periodically revising the program in
believes is problematic until such time                                                                         chooses the people that will accept the
                                                         light of changes in the organization’s
as the issue in question has been                                                                               responsibilities vested in members of
                                                         needs and in the law and policies and
resolved. In addition, the compliance                                                                           the compliance committee, the
                                                         procedures of Government and private
officer should be copied on the results                                                                         organization must train these
                                                         payor health plans;
of all internal audit reports and work                                                                          individuals on the policies and
                                                            • Reviewing employees’ certifications
closely with key managers to identify                                                                           procedures of the compliance program.
                                                         stating that they have received, read and
aberrant trends in the areas that require                                                                          The committee’s responsibilities
                                                         understood the standards of conduct;
certification. The compliance officer                                                                           should include:
                                                            • Developing, coordinating and
must have the authority to review all                                                                              • Analyzing the organization’s
                                                         participating in a multifaceted
documents and other information that                                                                            regulatory environment, the legal
                                                         educational and training program that
are relevant to compliance activities,                                                                          requirements with which it must
                                                         focuses on the elements of the
including, but not limited to,                                                                                  comply and specific risk areas;
                                                         compliance program and seeks to ensure                    • Assessing existing policies and
beneficiary records (where appropriate)
                                                         that all appropriate employees and                     procedures that address these areas for
and records concerning the marketing
                                                         management are knowledgeable of, and                   possible incorporation into the
efforts of the facility and the
                                                         comply with, pertinent Federal and                     compliance program;
Medicare+Choice organization
                                                         State standards;                                          • Working with appropriate
arrangements with other parties,
                                                            • Coordinating personnel issues with                departments, as well as affiliated
including employees, professionals on
                                                         the Medicare+Choice organization’s                     providers, to develop standards of
staff, relevant independent contractors,
                                                         human resources/personnel office (or its
suppliers, agents, supplemental staffing
                                                         equivalent) to ensure that providers and                  77 The compliance committee benefits from
entities and physicians. This policy
                                                         employees do not appear in the List of                 having the perspectives of individuals with varying
enables the compliance officer to review
                                                         Excluded Individuals/Entities and the                  responsibilities in the organization, such as
contracts and obligations (seeking the                                                                          operations, finance, audit, human resources,
                                                         GSA list of debarred contractors; 76
advice of legal counsel, where                                                                                  utilization review, medicine, claims processing,
                                                            • Assisting the Medicare+Choice                     information systems, legal, marketing, enrollment
appropriate) that may contain referral
                                                         organization’s management in                           and disenrollment as well as employees and
and payment provisions that could
                                                         coordinating internal compliance                       managers of key operating units. These individuals
                                                         review and monitoring activities,                      should have the requisite seniority and
  74 The OIG believes that it is not advisable for the                                                          comprehensive experience within their respective
compliance function to be subordinate to the
                                                         including annual or periodic reviews of                departments to implement any necessary changes in
Medicare+Choice organization’s general counsel,          departments;                                           the company’s policies and procedures.
comptroller or similar company financial officer.           • Independently investigating and                      78 A Medicare+Choice organization should expect

Free-standing compliance functions help to ensure        acting on matters related to compliance,               its compliance committee members and compliance
independent legal reviews and financial analyses of                                                             officer to demonstrate high integrity, good
the institution’s compliance activities. By
                                                         including the flexibility to design and                judgment, assertiveness and an approachable
separating the compliance function from the key                                                                 demeanor, while eliciting the respect and trust of
                                                           75 For multi-site Medicare+Choice organizations,
management positions of general counsel or CFO                                                                  employees of the organization. The compliance
(where the size and structure of the organization        the OIG encourages coordination with each facility     committee members should also have significant
make this a feasible option), a system of checks and     owned by the Medicare+Choice organization              professional experience in working with quality
balances is established to more effectively achieve      through the use of compliance liaisons at each site.   assurance, enrollment, marketing, clinical records
the compliance program’s goals.                            76 See note 94.                                      and auditing principles.
                       Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices                                       33881

conduct and policies and procedures        in disciplinary action, including                       b. Specialized Training
that promote allegiance to the             possible termination, when such failure                    Because Medicare+Choice
organization’s compliance program;         is serious. The Medicare+Choice                         organizations are responsible for
   • Recommending and monitoring, in       organization should retain adequate                     compliance in all of the risk areas
conjunction with the relevant              records of its training of employees,                   mentioned in section II.A. above, the
departments, the development of            including attendance logs and material                  OIG recommends Medicare+Choice
internal systems and controls to carry     distributed at training sessions. New                   organizations require individuals who
out the organization’s standards,          employees should be targeted for                        are involved in the risk areas to receive
policies and procedures as part of its     training early in their employment, and                 specialized training. For example,
daily operations;                          to the extent that they perform                         marketing employees should receive
   • Determining the appropriate
                                           complicated tasks with greater                          training on the marketing, enrollment,
strategy/approach to promote
                                           organizational legal exposure, should be                disenrollment and anti-kickback
compliance with the program and
                                           monitored closely until all training is                 policies. All employees who work with
detection of any potential violations,
                                           completed.                                              beneficiaries or providers regarding
such as through hotlines and other fraud
                                                                                                   medical services should receive
reporting mechanisms;                      a. General Sessions
   • Developing a system to solicit,                                                               appropriate training on the risks
evaluate and respond to complaints and        As part of their compliance programs,                associated with under-utilization. Those
problems; and                              Medicare+Choice organizations should                    employees who are involved in
   • Monitoring internal and external      require all affected employees to attend                developing enrollment, encounter and
audits and investigations for the          annual training that emphasizes the                     ACR data should receive training on
purpose of identifying troublesome         organization’s commitment to                            HCFA policies in these areas. Clarifying
issues and deficient areas experienced                                                             and emphasizing these areas of concern
                                           compliance with all Federal and State
by the Medicare+Choice organization                                                                through training and educational
                                           statutes and requirements, and the
and implementing corrective and                                                                    programs are particularly relevant to a
                                           policies of private payors. This training
preventive action.                                                                                 Medicare+Choice organization’s
                                           should highlight the organization’s                     marketing and financial personnel, in
   The committee may also address other    compliance program, summarize fraud
functions as the compliance concept                                                                that the pressure to meet business goals
                                           and abuse statutes and regulations,                     may render these employees
becomes part of the overall operating      Federal and State health care program
structure and daily routine.                                                                       particularly vulnerable to engaging in
                                           requirements, documentation                             prohibited practices.
C. Conducting Effective Training and       requirements for data submission and                       The OIG recommends
Education                                  marketing practices that reflect current                Medicare+Choice organizations’
   The proper education and training of    legal and program standards.                            compliance programs address the need
corporate officers, managers, employees       As part of the initial training, the                 for periodic professional education
and the continual retraining of current    standards of conduct should be                          courses for personnel. Such courses
personnel at all levels are significant    distributed to all employees. Every                     would be in addition to the internal
elements of an effective compliance        employee, as well as contracted                         training sessions provided by the
program. Where feasible, the               consultants, should be required to sign                 organization. For example, the
Medicare+Choice organization should        and date a statement that reflects the                  Medicare+Choice organization should
afford outside contractors and its         employee’s knowledge of, and                            ensure that data submission personnel
provider clients the opportunity to        commitment to the standards of                          receive annual professional training on
participate in the organization’s          conduct. This attestation should be                     the updated policies, requirements and
compliance training and educational        retained in the employee’s personnel                    directives for the current year.
programs. The contractors and provider     file. For contracted consultants, the                   c. Format of the Training Program
clients should be encouraged to develop    attestation should become part of the
their own compliance programs that                                                                    The OIG suggests all relevant levels of
                                           contract and remain in the file that                    personnel be made part of various
complement the Medicare+Choice             contains such documentation. To ensure
organization’s compliance program.                                                                 educational and training programs of
                                           that employees continuously meet the                    the Medicare+Choice organization.
1. Formal Training Programs                expected high standards set forth in the                Employees should be required to have a
   In order to ensure the appropriate      code of conduct, any employee                           minimum number of educational hours
information is being disseminated to the   handbook delineating or expanding                       per year, as appropriate, as part of their
correct individuals, the                   upon these standards of conduct should                  employment responsibilities. A variety
Medicare+Choice organization training      be regularly updated as applicable                      of teaching methods, such as interactive
program should include both a general      statutes, regulations and Federal health                training and training in several different
session and specialized sessions on        care program requirements are                           languages (including the translation of
specific risk areas. All employees         modified.79 Medicare+Choice                             standards of conducts and other
should attend the general session on       organizations should provide an                         materials), particularly where a
compliance. Employees whose job            additional attestation in the modified                  Medicare+Choice organization has a
responsibilities implicate specific risk   standards that stipulates the employee’s                culturally diverse staff, should be
areas (e.g., marketing or capitated        knowledge of, and commitment to, the                    implemented so that all affected
reimbursement rules) should attend the     modifications.                                          employees are knowledgeable about the
specialized sessions.                                                                              institution’s standards of conduct and
   The OIG recommends attendance and         79 While the OIG recognizes that not all standards,   procedures for alerting senior
participation at training programs be      policies and procedures need to be communicated         management to problems and concerns.
                                           to all employees, it believes that the bulk of the
made a condition of continued              standards that relate to complying with fraud and
                                                                                                   In addition, the materials should be
employment and that failure to comply      abuse laws and other ethical areas should be            written at appropriate reading levels for
with training requirements should result   addressed and made part of all employees’ training.     targeted employees. All training
33882                       Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices

materials should be designed to take                on a single site that can, by hypertext                information should be included in
into account the skills, knowledge and              link, provide access to all of these useful            reports to the governing body, the CEO
experience of the individual trainees.              resources.                                             and compliance committee.
Post-training tests can be used to assess                                                                     Employees, enrollees and providers
                                                    D. Developing Effective Lines of                       should be permitted to report matters on
the success of training provided and
                                                    Communication                                          a confidential basis. To encourage such
employee comprehension of the billing
company’s policies and procedures.                    An open line of communication                        reporting, written confidentiality and
                                                    between the compliance officer and                     non-retaliation policies should be
2. Informal and Ongoing Compliance                  Medicare+Choice organization                           developed and distributed to all
Training                                            personnel, as well as among the                        employees, enrollees and providers to
   It is essential that compliance issues           organization, health care providers and                encourage communication and the
remain at the forefront of the                      enrollees, is critical to the successful               reporting of incidents of potential
Medicare+Choice organization’s                      implementation of a compliance                         fraud.84 While the Medicare+Choice
priorities. The organization must                   program and the reduction of any                       organization should always strive to
demonstrate its commitment by                       potential for fraud, abuse and waste.                  maintain the confidentiality of the
continuing to disseminate the                       Each organization should have in place                 reporter’s identity, the policies should
compliance message. One effective                   both a mechanism for the reporting of                  explicitly communicate that there may
mechanism to achieve this goal is to                improper conduct, as well a mechanism                  be a point where the individual’s
publish a monthly compliance                        for more routine types of                              identity may become known or may
newsletter. This would allow the                    communication among the compliance                     have to be revealed.
Medicare+Choice organization to                     officer and relevant groups.                              The OIG recognizes that assertions of
address specific examples of problems                                                                      fraud and abuse by those who may have
                                                    1. Hotline or Other System for Reports
the company encountered during its                                                                         participated in illegal conduct or
                                                    of Potential Misconduct
ongoing audits and risk analysis, while                                                                    committed other malfeasance raise
reinforcing the company’s firm                         Each Medicare+Choice organization                   numerous complex legal and
commitment to the general principles of             should have in place a hotline or other                management issues that should be
compliance and ethical conduct. The                 mechanism 81 through which                             examined on a case-by-case basis. The
newsletter could also include the risk              employees, enrollees or other parties                  compliance officer should work closely
areas identified in current OIG                     can report potential violations of the                 with legal counsel to obtain guidance on
publications or investigations. Finally,            organization’s compliance policies or of               these issues.
the Medicare+Choice organization could              Federal or State health care program
                                                    requirements. In any event, several                    2. Routine Communication/Access to
use the newsletter as a mechanism to
                                                    independent reporting paths should be                  the Compliance Officer
address areas of ambiguity in the
marketing, utilization review and data              created for an employee to report fraud,                  While it is crucial that
submission process, and to notify                   waste or abuse so that such reports                    Medicare+Choice organizations have
employees of significant legal or                   cannot be diverted by supervisors or                   effective systems in place for the
regulatory developments. The                        other personnel. If the organization                   reporting of suspected misconduct, it is
Medicare+Choice organization should                 establishes a hotline, the telephone                   equally important that the compliance
maintain its newsletters in a central               number should be made readily                          officer foster more routine
location to document the guidance                   available to all employees, enrollees and              communication both among its
offered and provide new employees                   independent contractors, by circulating                employees and among its health care
with access to guidance previously                  the number on wallet cards or                          providers and enrollees.
provided. Other written materials, such             conspicuously posting the telephone                       With respect to its own employees,
as posters, fliers or articles in other             number in common work areas.82                         the OIG encourages the establishment of
company publications, could also be                    Matters reported through the hotline                procedures for personnel to seek
used to disseminate the compliance                  or other communication sources that                    clarification from the compliance officer
message.                                            suggest violations of compliance                       or members of the compliance
   Another effective method of                      policies, Federal and State health care                committee in the event of any confusion
maintaining the presence of the                     program requirements, regulations or                   or question regarding a company policy,
compliance message is to maintain a                 statutes should be documented and                      practice or procedure. Questions and
website devoted to compliance issues.               investigated promptly to determine their               responses should be documented and
This could be linked to the homepage of             veracity. A log should be maintained by                dated and, if appropriate, shared with
the organization. Many organizations                the compliance officer that records such               other staff so that standards, policies,
have chosen to maintain these sites                 calls, including the nature of any                     practices and procedures can be
internally on the Intranet to alleviate             investigation and its results.83 Such                  updated and improved to reflect any
any confidentiality concerns. The                      81 The OIG recognizes that it may not be
                                                                                                           issues identified through reporting mechanisms.
Intranet (or Internet) also facilitates the         financially feasible for a small Medicare+Choice       The form could include information concerning the
use of hypertext links that allow the               organization to maintain a telephone hotline           date the potential problem was reported, the
organization to maintain a centralized              dedicated to receiving calls solely on compliance      internal investigative methods utilized, the results
source on statutory, regulatory and other           issues. These companies may explore alternative        of any investigation, any corrective action
                                                    methods, e.g., contracting with an independent         implemented, any disciplinary measures imposed
program guidance disseminated by                    source to provide hotline services or establishing a   and any overpayments and monies returned.
HCFA,80 the OIG, the Department of                  written method of confidential disclosure.                84 The OIG believes that whistleblowers should be
Justice and the Congress. These links,                 82 Medicare+Choice organizations should also
                                                                                                           protected against retaliation, a concept embodied in
along with any other webpages that the              post in a prominent, available area the HHS-OIG        the provisions of the False Claims Act. See 31
                                                    Hotline telephone number, 1–800–447–8477 (1–           U.S.C. 3730(h). In many cases, employees sue their
Medicare+Choice organization deems                  800–HHS–TIPS), in addition to any organization’s       employers under the False Claims Act’s qui tam
pertinent and useful can be assembled               hotline number that may be posted.                     provisions out of frustration because of the
                                                       83 To efficiently and accurately fulfill such an    company’s failure to take action when a
  80 HCFA’s Medicare+Choice webpage is located at   obligation, the Medicare+Choice organization           questionable, fraudulent or abusive situation was
http://www.hcfa.gov/medicare/mgdcar1.htm.           should create an intake form for all compliance        brought to the attention of senior corporate officials.
                              Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices                                                      33883

necessary changes or clarifications. The                on factors such as the size of the                     problem.89 Any overpayments
compliance officer may want to solicit                  company, the resources available to the                discovered as a result of such deviations
employee input in developing these                      company, the company’s prior history of                should be reported promptly to HCFA
communication and reporting systems.                    noncompliance and the risk factors that                (or its designees), with appropriate
The methods discussed above relating to                 are prevalent in a particular                          documentation and a thorough
ongoing training and education are an                   organization.                                          explanation of the reason for the
integral part of this communication.85                     Although many monitoring                            overpayment.90
  The communication and coordination                    techniques are available, one effective                   An effective compliance program
function of the compliance program                      tool to promote and ensure compliance                  should also incorporate periodic (at a
serves an even more critical role in the                is the performance of regular, periodic                minimum, annual) reviews of whether
context of the managed care                             compliance audits by internal or                       the program’s compliance elements
environment because the managed care                    external auditors who have expertise in                have been satisfied, e.g., whether there
entity serves as an intermediary                        Federal and State health care statutes,                has been appropriate dissemination of
between the health care provider and                    regulations and Federal health care                    the program’s standards, training,
the enrollee.86 In fact, the raison d’e´tre             program requirements. The audits                       ongoing educational programs and
of a managed care organization is to                    should focus on the Medicare+Choice                    disciplinary actions.91 This process will
coordinate the care of its enrollees. As                organization’s programs or divisions,                  verify actual conformance by all
with providers, communications with                     including external relationships with                  departments with the compliance
beneficiaries and communications with                   third-party contractors, specifically                  program. Such reviews may support a
HCFA (and its designees) must                           those with substantive exposure to                     determination that appropriate records
demonstrate the highest level of                        Government enforcement actions. The                    have been created and maintained to
integrity, honesty and judgment. The                    audits should be sure to cover the range               document the implementation of an
Medicare+Choice organization should                     of programmatic requirements of the                    effective program.
implement methods to encourage                          Medicare+Choice program. In                               The reviewers involved in any audits
communication among its enrollees and                   particular, the audits should focus on                 should:
providers. For example, a                               the risk areas identified earlier in this                 • Possess the qualifications and
Medicare+Choice organization should                     document, especially the data and                      experience necessary to adequately
communicate the results of audits,                      information which affects payments by                  identify potential issues with the subject
disenrollment surveys, utilization data                 Medicare. Finally, the Medicare+Choice                 matter to be reviewed;
and quality of care determinations to its               organization should focus on any areas                    • Be independent of line
contracting suppliers and providers in                  of specific concern identified within                  management;
order to facilitate open discussion                     that organization and those that may                      • Have access to existing audit and
regarding appropriate health care                       have been identified by any outside                    health care resources, relevant
delivery.                                               agency, whether Federal or State.                      personnel and all relevant areas of
                                                           Monitoring techniques may include                   operation;
E. Auditing and Monitoring                              sampling protocols that permit the                        • Resent written evaluative reports on
  An ongoing evaluation process is                      compliance officer to identify and                     compliance activities to the CEO,
critical to a successful compliance                     review variations from an established                  governing body members of the
program. The OIG believes an effective                  baseline.88 Significant variations from                compliance committee and its provider
program should incorporate thorough                     the baseline should trigger a reasonable               clients on a regular basis, but not less
monitoring of its implementation and                    inquiry to determine the cause of the                  than annually; and
regular reporting to senior company                     deviation. If the inquiry determines that                 • Specifically identify areas where
                                                        the deviation occurred for legitimate,                 corrective actions are needed.
officers.87 Compliance reports created
                                                        explainable reasons, the compliance                       In the Medicare+Choice context, a
by this ongoing monitoring, including
                                                        officer or manager may want to limit                   variety of different methods will be
reports of suspected noncompliance,
                                                        any corrective action or take no action.               necessary to adequately monitor and
should be maintained by the
                                                        If it is determined that the deviation was             evaluate the ongoing operations of the
compliance officer and reviewed with
                                                        caused by improper procedures,                         Medicare+Choice organization. In
the Medicare+Choice organization’s
                                                        misunderstanding of rules, including                   general, OIG recommends the use of
senior management and the compliance
                                                        fraud and systemic problems, the                       techniques such as on-site visits,
committee. The extent and frequency of
                                                        Medicare+Choice organization should                    questionnaires (for providers, enrollees
the audit function may vary depending
                                                        take prompt steps to correct the                       and employees), and trend analyses, to
   85 In addition to methods of communication used                                                             name just several.92 Because the
                                                           88 The OIG recommends that when a compliance
by current employees, an effective employee exit
interview program could be designed to solicit          program is established in a Medicare+Choice              89 Prompt steps to correct the problem include

information from departing employees regarding          organization, the compliance officer, with the         contacting the appropriate provider in situations
                                                        assistance of department managers, take a              where the provider’s actions contributed to the
potential misconduct and suspected violations of
                                                        ‘‘snapshot’’ of the organization’s operations from a   problem.
the Medicare+Choice organization’s policy and
                                                        compliance perspective. This assessment can be
procedures.                                                                                                      90 In addition, when appropriate, as referenced in
                                                        undertaken by outside consultants, law or
   86 An ‘‘enrollee’’ is defined in this compliance                                                            section G.2, below, reports of fraud or systemic
                                                        accounting firms, or internal staff, with
program guidance as any Medicare+Choice eligible        authoritative knowledge of health care compliance      problems should also be made to the appropriate
individual who has elected a Medicare+Choice plan       requirements. This ‘‘snapshot,’’ often used as part    governmental authority.
offered by a Medicare+Choice organizations. See 42      of bench marking analysis, becomes a baseline for
                                                                                                                 91 One way to assess the knowledge, awareness

CFR 422.2.                                              the compliance officer and other managers to judge     and perceptions of the Medicare+Choice
   87 Even when a facility is owned by a larger
                                                        the Medicare+Choice organization’s progress in         organization’s staff is through the use of a validated
corporate entity, the regular auditing and              reducing or eliminating potential areas of             survey instrument (e.g., employee questionnaires,
monitoring of the compliance activities of an           vulnerability. Medicare+Choice organizations           interviews or focus groups).
individual facility must be a key feature in any        should track statistical data on utilization review      92 Medicare+Choice organizations may want to

annual review. Appropriate reports on audit             and quality data based on customer satisfaction and    consult HCFA’s Contractor Performance Monitoring
findings should be periodically provided and            renewal data. This will facilitate identification of   System Manual to get additional ideas for
explained to a parent-organization’s senior staff and   problem areas and elimination of potential areas of    monitoring methods. In addition, organizations may
officers.                                               abusive or fraudulent conduct.                                                                     Continued
33884                        Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices

auditing and monitoring function is                   the general counsel’s office to ensure        Medicare+Choice organizations have
very different and much more complex                  that they do not mislead, confuse or        a good source of information regarding
in the managed care context than in any               misrepresent any aspect of the plan.        utilization issues, simply by tracking the
other segment of the health care                      Similarly, they should also be examined     type of appeals and grievances they
industry, we have provided additional                 by the claims processing department         receive from beneficiaries. This
guidance on the methods to be used in                 and utilization review office for           information should be tracked in a
evaluating selected risk areas.                       consistency with the policies,              database that can be easily accessed by
                                                      procedures and practices of these           type of grievance or appeal and results.
1. Marketing/Enrollment/Disenrollment
                                                      departments.                                3. Data Collection and Submission
  Developing a system for evaluating
the compliance of the marketing,                      2. Underutilization and Quality of Care     Processes
enrollment and disenrollment functions                   Procedures for tracking and reporting       Given the importance of the
of a Medicare+Choice organization                     utilization review data are vital to the    enrollment, encounter and ACR data,
requires innovative techniques. Each                  success of any compliance endeavor.         the Medicare+Choice organization
Medicare+Choice organization will have                Medicare+Choice organizations should        should develop ways to audit this
to develop an individualized method as                periodically review the service areas       information to assure its accuracy. For
to how to obtain this data. Some of the               that are part of the Medicare+Choice        example, encounter data should be
methods that the OIG suggests include:                organization to ensure that enrollees are   sampled periodically to determine its
the use of secret shoppers; surveying                 receiving adequate access to care. In       accuracy and reliability. As a part of
current enrollees; 93 and conducting exit             reviewing service areas,                    that process, Medicare+Choice
interviews with former enrollees                      Medicare+Choice organizations should        organizations must detail in their
(particularly those that disenrolled just             collect data on the number of primary       contractual relationships with providers
prior to obtaining an expensive service)              care physicians in the service area, the    the access that they will need to the
on their experience with the                          number and type of specialists in the       provider’s medical record
Medicare+Choice marketing and                         service area, the waiting time for          documentation.
enrollment process. Once this data is                 appointments, the telephone access to       4. Anti-Kickback and Other
collected, it must be maintained in a                 the Medicare+Choice organization and        Inducements
format that can be accessed readily.                  the problems associated with the
  In an effort to integrate the monitoring            coordination of care. All of this data         Medicare+Choice organizations
function with its training function,                  should be maintained in a database in       should periodically review their
Medicare+Choice organizations may                     a format that can be used to generate       contractual documents and discussions
wish to test their marketing staff on                 statistical data and analysis.              with providers to ensure that
their knowledge of the company’s                                                                  ‘‘swapping’’ is not occurring, which
                                                         Medicare+Choice organizations
policies and procedures, as well as the                                                           would cause such relationships to fall
                                                      should ensure that there are adequate
Federal and State statutes that govern                                                            outside the applicable safe harbor. In
                                                      systems in place to monitor
the marketing process. This assessment                                                            addition, contracts with marketing
                                                      underutilization and inappropriate
can be developed to take on many                                                                  personnel should be reviewed by legal
                                                      denials. Such procedures include
formats. Many companies have                                                                      counsel to be sure they do not violate
                                                      collecting data on utilization patterns
customized interactive software to test                                                           applicable statutes and regulations.
                                                      and detecting aberrant patterns. This          F. Enforcing Standards Through Well-
employees’ knowledge of relevant                      data should be checked against
policies and procedures. It may also be                                                           Publicized Disciplinary Guidelines and
                                                      utilization rates in the industry. This     Policies Regarding Dealings With
formulated in the traditional written                 function could be performed by a
version.                                                                                          Ineligible Persons
                                                      medical affairs department that is             The OIG recommends that all
  Methods used to monitor marketing                   responsible for regular review of claims,
agents include the analysis of                                                                    Medicare +Choice organizations’
                                                      the payment system, encounter data and      compliance programs include several
disenrollment data to identify marketing              medical record review to assess the
agents with high and low percentages of                                                           key policies in the area of personnel/
                                                      degree to which care is under (or over)     human resources. The first deals with
member disenrollments within a set                    utilized.
number of days (e.g., 90 days). In                                                                the establishment and consistent
                                                         Similarly, the Medicare+Choice           application of appropriate disciplinary
addition, Medicare+Choice                             organization should survey its enrollees
organizations may want to establish                                                               policies to deal with improper conduct
                                                      on utilization patterns and whether they    and the second deals with the
enrollment verification systems                       felt they were subjected to inadequate
requiring that a different individual                                                             employment of certain ineligible
                                                      health care services or inappropriate       individuals.
from the sales agent meet with                        denials. Such survey results should be
beneficiaries who have applied for                    reviewed and investigated, when             1. Consistent Enforcement of
enrollment to ensure that they                        appropriate. Generally, these may be        Disciplinary Policies
understand restrictions of the plan, such             skewed in favor of the Medicare+Choice         An effective compliance program
as the lock-in provision.                             organization if the enrollees are current   should include guidance regarding
   Finally, it is essential for all                   members. Presumably, if an enrollee         disciplinary action for all employees
marketing materials to be reviewed by                 was truly dissatisfied with the             who have failed to comply with the
                                                      Medicare+Choice organization’s attitude     Medicare+Choice organization’s
want to consult the OAS website for information on
conducting audits, including information on           toward enrollee rights, the enrollee        standards of conduct, policies and
statistical sampling (RAT–STATS). See note 10.        would have disenrolled from the plan.       procedures, Federal health care program
  93 It should be noted, while this method may be     As a result, a Medicare+Choice              requirements, or Federal and State laws,
less expensive, it may not provide unbiased data,     organization should evaluate both           or those who have otherwise engaged in
particularly in the area of selective marketing. In
fact, in the selective marketing area, the data may
                                                      current enrollee satisfaction surveys and   wrongdoing. It is vital to publish and
be skewed significantly in favor of the               exit interview surveys of former            disseminate the range of possible
Medicare+Choice organization.                         enrollees.                                  disciplinary actions for improper
                         Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices                                                 33885

conduct and to educate officers and            be used to periodically check existing                failures to comply with applicable
other staff regarding these standards.         employees and contractors.                            Federal or State law, rules and program
Employees should be advised that                  Lists of debarred and excluded                     instructions and other types of
disciplinary action may be appropriate         individuals and entities are currently                misconduct threaten a Medicare+Choice
where a responsible employee’s failure         maintained by both the OIG and the                    organization’s status as a reliable,
to detect a violation is attributable to his   General Services Administration.94 By                 honest and trustworthy company.
or her negligence or reckless conduct.         approximately January 2000, the                       Detected but uncorrected misconduct
The sanctions could range from oral            Healthcare Integrity Protection Data                  can seriously endanger the mission,
warnings to suspension, termination or         Bank (HIPDB) will be available to                     reputation and legal status of the
other sanctions, as appropriate. While         Medicare+Choice organizations (for a                  organization. Consequently, upon
each situation must be considered on a         nominal fee) to use in conducting these               reports or reasonable indications of
case-by-case basis to determine the            checks on employees and contractors.95                suspected noncompliance, it is
appropriate sanction, intentional or           The HIPDB is an electronic data                       important that the chief compliance
reckless noncompliance should subject          collection program that will collect,                 officer or other management officials
transgressors to significant sanctions.        store and disseminate reports on                      promptly investigate the conduct in
   The written standards of conduct            practitioners, providers and suppliers                question to determine whether a
should elaborate on the procedures for         that have been the subject of health care             material violation of applicable law,
handling disciplinary problems and             related final adverse actions in criminal,            rule or program instruction or the
identify who will be responsible for           civil and administrative proceedings.                 requirements of the compliance program
taking appropriate action. For example,        The final adverse actions to be reported              has occurred, and if so, take steps to
while disciplinary actions can be              to the HIPDB include criminal                         correct the problem.97 As appropriate,
handled by department managers,                convictions or civil judgments related to             such steps may include an immediate
others may have to be resolved by a            the delivery of health care, actions by               referral to criminal and/or civil law
more senior official of the organization.      Federal or State agencies responsible for             enforcement authorities, a corrective
                                               licensing or certification of health care             action plan, a report to the
Personnel should be advised by the
                                               providers, suppliers and practitioners,               Government,98 and the notification to
organization that disciplinary action
                                               and exclusions from Federal or State                  the provider of any discrepancies or
will be taken on a fair and equitable
                                               health care programs.                                 overpayments, if applicable.
basis, that is, all levels of employees           Pending the resolution of any known                   The Medicare+Choice organization
should be subject to similar disciplinary      criminal charges or proposed debarment                should document its efforts to comply
action for the commission of similar           or exclusion, the OIG recommends that                 with applicable statutes, regulations and
offenses. Managers and supervisors             such individuals should be removed                    Federal health care program
should be held accountable to                  from direct responsibility for, or                    requirements. For example, where a
implement the disciplinary policy              involvement in, any Federal health care               Medicare+Choice organization, in its
consistently so that the policy will have      program.96 Similarly, with regard to                  efforts to comply with a particular
the required deterrent effect.                 current employees or independent                      statute, regulation or program
2. Employment of and Contracting With          contractors, if resolution of the matter              requirement, requests advice from a
Ineligible Persons                             results in conviction, debarment or                   Government agency charged with
                                               exclusion, then the Medicare+Choice                   administering a Federal health care
  All Medicare+Choice organizations            organization should remove the                        program, the Medicare+Choice
should use care when delegating                individual from direct responsibility for,            organization should document and
substantial discretionary authority to         or involvement with, the organization’s               retain a record of the request and any
make decisions that may involve                business operations related to Federal                written or oral response. This step is
compliance with the law or compliance          health care programs. In addition, they               extremely important if the
oversight. In particular, the organization     should remove such person from any                    Medicare+Choice organization intends
should ensure that it does not delegate        position for which the person’s salary or             to rely on that response to guide it in
such responsibilities to individuals or        other items or services rendered,                     future decisions, actions or appeals. A
entities that it knows, or should have         ordered, or prescribed by the person are              log of oral inquiries between the
known, have a propensity to engage in          paid in whole or part, directly or                    Medicare+Choice organization and third
inappropriate or improper conduct.             indirectly, by Federal health care                    parties will help the organization
Pursuant to the compliance program,            programs or otherwise with Federal                    document its attempts at compliance. In
Medicare+Choice organization’s policies        funds, at least until such time as the
should prohibit the employment of or           person is reinstated into participation in              97 Instances of non-compliance must be

contracting with individuals or entities       the Federal health care programs.                     determined on a case-by-case basis. The existence,
who have been recently convicted of a                                                                or amount, of a monetary loss to a health care
criminal offense related to health care or     G. Responding to Detected Offenses and                program is not solely determinative of whether or
                                               Developing Corrective Action Initiatives              not the conduct should be investigated and reported
who are listed as debarred, excluded or                                                              to governmental authorities. In fact, there may be
otherwise ineligible for participation in        Violations of the Medicare+Choice                   instances where there is no readily identifiable
                                               organization’s compliance program,                    monetary loss at all, but corrective action and
Federal health care programs. The                                                                    reporting are still necessary to protect the integrity
policies should require the                                                                          of the applicable program and its beneficiaries.
Medicare+Choice organization to utilize          94 OIG’s List of Excluded Individuals/Entities is
                                                                                                       98 The OIG currently maintains a provider self-
                                               available on the Internet at http://www.dhhs.gov/
Government resources to determine              progorg/oig and the General Services
                                                                                                     disclosure protocol that encourages providers to
whether such individuals or entities are                                                             report suspected fraud. The concept of self-
                                               Administration list of debarred contractors is        disclosure is premised on a recognition that the
debarred or excluded. These resources          available on the Internet at http://www.arnet.gov/    Government alone cannot protect the integrity of
should be used for both potential              epls.                                                 the Medicare and other Federal health care
                                                 95 See 42 U.S.C. 1320a–7e.
employees (as part of the employment                                                                 programs. Health care providers must be willing to
                                                 96 Prospective employees who have been officially   police themselves, correct underlying problems and
application process, which should also         reinstated into the Medicare and Medicaid             work with the Government to resolve these matters.
include a reasonable and prudent               programs by the OIG may be considered for             The self-disclosure protocol can be located on the
background investigation), and should          employment upon proof of such reinstatement.          OIG’s website at http://www.dhhs.gov/progorg/oig.
33886                   Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices

addition, the Medicare+Choice                2. Reporting                                             3. Reporting Procedure
organization should maintain records            If the compliance officer, compliance                    When reporting misconduct to the
relevant to the issue of whether its         committee or a management official                       Government, a Medicare+Choice
reliance was ‘‘reasonable,’’ and whether     discovers credible evidence of                           organization should provide all
it exercised due diligence in developing     misconduct from any source and, after                    evidence relevant to the alleged
procedures to implement the advice.          reasonable inquiry, has reason to believe                violation of applicable Federal or State
                                             that the misconduct may violate                          law(s) and any potential cost impact.
1. Violations and Investigations
                                             criminal, civil or administrative law,99                 The compliance officer, with guidance
   Depending upon the nature of the          then the Medicare+Choice organization                    from the governmental authorities,
alleged violations, an internal              should report the existence of                           could be requested to continue to
investigation will probably include          misconduct promptly to the appropriate                   investigate the reported violation. Once
interviews and a review of relevant          Government authority 100 within a                        the investigation is completed, the
documents. Medicare+Choice                   reasonable period, but not more than 60                  compliance officer should be required to
organizations should consider engaging       days after determining that there is                     notify the appropriate governmental
outside counsel, auditors or health care     credible evidence of a violation. Prompt                 authority of the outcome of the
                                             reporting will demonstrate the                           investigation, including a description of
experts to assist in an investigation.
                                             Medicare+Choice organization’s good                      the impact of the alleged violation on
Records of the investigation should
                                             faith and willingness to work with                       the operation of the applicable health
contain documentation of the alleged         governmental authorities to correct and
violation, a description of the                                                                       care programs or their beneficiaries. If
                                             remedy the problem. In addition,                         the investigation ultimately reveals
investigative process (including the         reporting such conduct will be
objectivity of the investigators and                                                                  criminal, civil or administrative
                                             considered a mitigating factor by the                    violations have occurred, the
methodologies utilized), copies of           OIG in determining administrative
interview notes and key documents, a                                                                  appropriate Federal and State
                                             sanctions (e.g., penalties, assessments                  officials 102 should be notified
log of the witnesses interviewed and the     and exclusion), if the reporting                         immediately.
documents reviewed, the results of the       company becomes the target of an OIG
investigation, e.g., any disciplinary        investigation.101                                        4. Corrective Actions
action taken and any corrective action                                                                  As previously stated,
implemented. Although any action               99 When making the determination of credible
                                                                                                      Medicare+Choice organizations should
taken as the result of an investigation      misconduct, the Medicare+Choice organization
                                             should consider, among other statutes, 18 U.S.C.         take appropriate corrective action,
will necessarily vary depending upon         669 [holding an individual(s) criminally liable for      including prompt identification of any
the Medicare+Choice organization and         knowingly and willfully embezzling, stealing or          overpayment, repayment of the
the situation, Medicare+Choice               otherwise converting to the use of any person other
                                             than the rightful owner or intentionally
                                                                                                      overpayment, modification to policies
organizations should strive for some         misapplying any of the monies, funds * * *               or manuals and the imposition of proper
consistency by utilizing sound practices     premiums, credits, property or assets of a health        disciplinary action, if applicable.
and disciplinary protocols. Further,         care benefit program] and 18 U.S.C. 2 [establishing      Failure to notify authorities of an
after a reasonable period, the               criminal liability for an individual(s) who commits
                                             an offense against the United States or aids, abets,     overpayment within a reasonable period
compliance officer should review the         counsels, commands, induces or procures its              of time could be interpreted as an
circumstances that formed the basis for      commission as punishable as the principle]. In           intentional attempt to conceal the
the investigation to determine whether       making this determination, the Medicare+Choice           overpayment from the Government,
                                             organization should also consider the civil False
similar problems have been uncovered         Claims Act, 31 U.S.C. 3729, which imposes treble         thereby establishing an independent
or modifications of the compliance           damages and penalties on those (including                basis for a criminal violation with
program are necessary to prevent and         subcontractors) who knowingly submit false claims        respect to the Medicare+Choice
                                             for Federal funds, or cause their submission, or who
detect other inappropriate conduct or        knowingly prepare false records or statements to get
                                                                                                      organization, as well as any individuals
violations.                                  such false claims paid. Under the civil False Claims     who may have been involved.103 For
   If an investigation of an alleged         Act, ‘‘knowingly’’ means that a person ‘‘has actual      this reason, Medicare+Choice
                                             knowledge of the information, acts in deliberate         compliance programs should ensure
violation is undertaken and the              ignorance of the truth or falsity of the information,
compliance officer believes the integrity    or acts in reckless disregard of the truth or falsity
                                                                                                      that overpayments are identified quickly
of the investigation may be at stake         of the information, and no proof of specific intent      and promptly return overpayments
                                             to defraud is required.’’ 31 U.S.C. 3729.                obtained from Medicare or other Federal
because of the presence of employees           100 Appropriate Federal and/or State authorities
                                                                                                      health care programs.104
under investigation, those subjects          include the Office of Inspector General of the
should be removed from their current         Department of Health and Human Services, the
                                             Criminal and Civil Divisions of the Department of        of various fraud and abuse laws. See 62 FR 67392
work activity until the investigation is                                                              (12/24/97).
                                             Justice, the U.S. Attorneys in the relevant districts,
completed (unless an internal or             and the other investigative arms for agencies               102 See note 100.

Government-led undercover operation          administering the affected Federal or State health          103 See 42 U.S.C. 1320a–7b(a)(3).

known to the Medicare+Choice                 care programs, such as the State Medicaid Fraud             104 If a Medicare+Choice organization needs

organization is in effect). In addition,     Control Unit, the Defense Criminal Investigative         further guidance regarding normal repayment
                                             Service, the Department of Veterans Affairs, the         channels, the organization should consult with the
the compliance officer should take           Office of Inspector General, U.S. Department of          CHPP. The CHPP may require certain information
appropriate steps to secure or prevent       Labor (which has primary criminal jurisdiction over      (e.g., alleged violation or issue causing
the destruction of documents or other        FECA, Black Lung and Longshore programs) and             overpayment, description of overpayment,
                                             the Office of Inspector General, U.S. Office of          description of the internal investigative process
evidence relevant to the investigation. If   Personnel Management (which has primary                  with methodologies used to determine any
the Medicare+Choice organization             jurisdiction over the Federal Employees Health           overpayments, disciplinary actions taken and
determines disciplinary action is            Benefit Program).                                        corrective actions taken) to be submitted with
warranted, it should be prompt and             101 The OIG has published criteria setting forth       return of any overpayments, and that such
                                             those factors that the OIG takes into consideration      repayment information be submitted to a specific
imposed in accordance with the               in determining whether it is appropriate to exclude      department or individual in the carrier or
organization’s written standards of          a health care provider from program participation        intermediary’s organization. Interest will be
disciplinary action.                         pursuant to 42 U.S.C. 1320a–7(b)(7) for violations       assessed, when appropriate. See 42 CFR 405.376.
                         Federal Register / Vol. 64, No. 121 / Thursday, June 24, 1999 / Notices                                  33887

III. Conclusion                               The meeting will be closed to the               and personal information concerning
   Through this document, the OIG has       public in accordance with the                     individuals associated with the grant
                                            provisions set forth in sections                  applications, the disclosure of which
attempted to provide a foundation for
                                            552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,        would constitute a clearly unwarranted
the development of effective and
                                            as amended. The grant applications and            invasion of personal privacy
comprehensive Medicare+Choice
                                            the discussions could disclose                      Name of Committee: National Institute of
compliance programs. These principles
                                            confidential trade secrets or commercial          Diabetes and Digestive and Kidney Diseases
can also be used by entities to develop
                                            property such as patentable material,             Special Emphasis Panel.
compliance programs applicable to
                                            and personal information concerning                 Date: July 13–14, 1999.
other Federal and health care programs,
                                            individuals associated with the grant               Time: 7:00 pm to 6:00 pm.
as well as for their private lines of                                                           Agenda: To review and evaluate grant
                                            applications, the disclosure of which
business. As previously stated, however,                                                      applications.
                                            would constitute a clearly unwarranted
each program must be tailored to fit the                                                        Place: Bethesda Marriott Hotel, 5151 Pooks
                                            invasion of personal privacy.
needs and resources of an individual                                                          Hill Road, Bethesda, MD 20814.
organization, depending upon its              Name of Committee: National Cancer                Contact Person: Shan S. Wong, PhD,
particular corporate structure, mission     Institute Special Emphasis Panel, Spore in        Scientific Review Administrator, Review
                                            Ovarian Cancer                                    Branch, DEA, NIDDK, Natcher Building,
and employee composition. The
                                              Date: June 27–29, 1999.                         Room 6 AS 25, National Institutes of Health,
statutes, regulations and guidelines of       Time: 6:00 pm to 6:00 pm.                       Bethesda, MD, (301) 594–7797.
the Federal and State health insurance        Agenda: To review and evaluate grant
programs, as well as the policies and                                                         (Catalogue of Federal Domestic Assistance
                                            applications.
                                                                                              Program Nos. 93.847, Diabetes,
procedures of the private health plans,       Place: Holiday Inn—Silver Spring, 8777
                                            Georgia Avenue, Silver Spring, MD 20910.          Endocrinology and Metabolic Research;
should be integrated into every                                                               93.848, Digestive Diseases and Nutrition
Medicare+Choice organization’s                Contact Person: Martin H. Goldrosen, PhD.,
                                            Scientific Review Administrator, Grants           Research; 93.849, kidney Diseases, Urology
compliance program.                                                                           and Hematology Research, National Institutes
                                            Review Branch, Division of Extramural
   The OIG recognizes that the health       Activities, National Cancer Institute, National   of Health, HHS)
care industry, which reaches millions of    Institutes of Health, 6130 Executive                Dated: June 16, 1999.
beneficiaries and expends about a           Boulevard, Room 635 C, Rockville, MD              LaVerne Y. Stringfield,
trillion dollars annually, is constantly    20852–7408, (301) 496–7930.                       Director, Office of Federal Advisory
evolving. In no area of the industry is       This notice is being published less than 15     Committee Policy.
this more evident than in the growing       days prior to the meeting due to the timing
                                            limitations imposed by the review and             [FR Doc. 99–16058 Filed 6–23–99; 8:45 am]
area of managed care, particularly
                                            funding cycle.                                    BILLING CODE 4140–01–M
Medicare managed care. As a result, the
time is right for Medicare+Choice           (Catalogue of Federal Domestic Assistance
                                            Program Nos. 93.392, Cancer Construction;
organizations to implement strong,          93.393, Cancer Cause and Prevention               DEPARTMENT OF HEALTH AND
voluntary compliance programs.              Research; 93.394, Cancer Detection and            HUMAN SERVICES
Compliance is a dynamic process that        Diagnosis Research; 93.395, Cancer
helps to ensure Medicare+Choice             Treatment Research; 93.396, Cancer Biology        National Institutes of Health
organizations are better able to fulfill    Research; 93.397, Cancer Centers Support;
their commitment to ethical behavior        93.398, Cancer Research Manpower; 93.399,         National Institute of Dental and
and to meet the changes and challenges      Cancer Control, National Institutes of Health,    Craniofacial Research; Notice of
                                            HHS)                                              Closed Meetings
being imposed upon them by the
Congress and private insurers. It is          Dated: June 18, 1999.
                                            LaVerne Y. Stringfield,                              Pursuant to section 10(d) of the
OIG’s hope that voluntarily created                                                           Federal Advisory Committee Act, as
compliance programs will enable             Committee Management Officer, NIH.
                                                                                              amended (5 U.S.C. Appendix 2), notice
Medicare+Choice organizations to meet       [FR Doc. 99–16062 Filed 6–23–99; 8:45 am]
                                                                                              is hereby given of the following
their goals of providing efficient and      BILLING CODE 4140–01–M
                                                                                              meetings.
quality health care and at the same time,                                                        The meetings will be closed to the
substantially reduce fraud, waste and                                                         public in accordance with the
abuse.                                      DEPARTMENT OF HEALTH AND
                                            HUMAN SERVICES                                    provisions set forth in sections
  Dated: June 18, 1999.                                                                       552b(c)(4) and 552b(c)(6), title 5 U.S.C.,
June Gibbs Brown,                           National Institutes of Health                     a amended. The grant applications and
Inspector General.                                                                            the discussions could disclose
[FR Doc. 99–16072 Filed 6–23–99; 8:45 am]   National Institute of Diabetes and                confidential trade secrets or commercial
BILLING CODE 4150–04–P
                                            Digestive and Kidney Diseases; Notice             property such as patentable material,
                                            of Closed Meeting                                 and personal information concerning
                                                                                              individuals associated with the grant
                                               Pursuant to section 10(d) of the
DEPARTMENT OF HEALTH AND                                                                      applications, the disclosure of which
                                            Federal Advisory Committee Act, as
HUMAN SERVICES                                                                                would constitute a clearly unwarranted
                                            amended (5 U.S.C. Appendix 2), notice
                                                                                              invasion of personal privacy.
                                            is hereby given of the following
National Institutes of Health                                                                   Name of Committee: National Institute of
                                            meeting.
                                               The meeting will be closed to the              Dental Research Special Emphasis Panel 99–
National Cancer Institute; Notice of                                                          37, Review of R01.
Closed Meeting                              public in accordance with the
                                            provisions set forth in sections                    Date: June 24, 1999.
                                                                                                Time: 11:00 am to 12:30 pm.
   Pursuant to section 10(d) of the         552b(c)(4) and 552b(c)(6), Title 5 U.S.C.,          Agenda: To review and evaluate grant
Federal Advisory Committee Act, as          as amended. The grant applications and            applications.
amended (5 U.S.C. Appendix 2), notice       the discussions could disclose                      Place: Natcher Building, Rm. 4AN44F,
is hereby given of the following            confidential trade secrets or commercial          Bethesda, MD 20892 (Telephone Conference
meeting.                                    property such as patentable material,             Call).
